No. 20-

In The

Supreme Court of the United States
DAVID E. HENRY,
Petitioner
v.
CASTLE MEDICAL CENTER,
Respondent
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
DENNIS W. KING
Counsel of Record
JOHN WINNICKI
DEELEY KING PANG & VAN ETTEN
1003 Bishop Street, Suite 1550
Honolulu, HI 96813
dwk@dkpvlaw.com
Telephone: (808) 533-1751

i
QUESTIONS PRESENTED FOR REVIEW
In spite of this Court’s long-standing precedent that
a post-judgment motion to amend the complaint
must be decided under the same standards as a
similar motion filed pre-judgment, the circuits are
split in their treatment of a post-judgment motion.
The Fourth and the Seventh Circuit apply the liberal
standards for allowing amendments to pleadings
consistent with this Court’s precedent. The Ninth
and the Eleventh Circuits hold that the court may
not consider a post-judgment motion to amend unless
the judgment is first vacated.
1.
Whether a district court must consider and
decide on the merits a post-judgment motion for
leave to amend the complaint when the motion is
made within a timely filed motion to alter, amend or
set aside the judgment under Rules 59 or 60 of the
Federal Rules of Civil Procedure?
2.
Whether the liberal standard for allowing
amendments to pleadings pursuant to Rule 15 of the
Federal Rules of Civil Procedure applies to a postjudgment motion for leave to amend the complaint
made in a timely filed motion to alter, amend or set
aside the judgment under Rules 59 or 60 of the
Federal Rules of Civil Procedure?
3.
Whether the decision below denying the
Petitioner’s motion for leave to amend his complaint
is in direct conflict with this Court’s decision in
Foman v. Davis, 371 U.S. 178 (1962), as well as the
decisions of several circuit courts of appeals.

ii
RELATED PROCEEDINGS
United States District Court for the District of
Hawaii: Case No. 1:18-cv-00046-JAO-KJM, David E.
Henry, M.D. v. Adventist Health Castle Medical
Center. Date of entry of the judgment: January 28,
2019.
United States Court of Appeals for the Ninth Circuit:
Appeal No. 19-16010, David E. Henry, M.D. v.
Adventist Health Castle Medical Center. Date of
entry of the judgment: August 14, 2020.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW ……….i
RELATED PROCEEDINGS …………………………ii
TABLE OF CONTENTS ……………………………..iii
TABLE OF AUTHORITIES ……………………….…v
PETITION FOR WRIT OF CERTIORARI …………1
DECISION BELOW ………………………………….. 4
JURISDICTION ………………………………………..4
STATUTORY PROVISIONS INVOLVED ………….4
STATEMENT OF THE CASE….……………………..6
REASONS FOR GRANTING THE WRIT………….11
I. The Circuits Are Divided Over Standards
Applicable to a Post-Judgment Motion to Amend
the Complaint ………………………………………13
A. The Fourth and Seventh Circuits Follow
Foman ……………………………………………16
B. The Ninth and Eleventh Circuits Ignore
Foman …………………………………………...21
II. The Ninth and Eleventh Circuits’ Approach to
Post-Judgment Motions to Amend the Complaint
Is Wrong ……………………………………………..30

iv

III.

The Conflict of Authority Is Exceptionally
Important and Warrants Review ……………33

CONCLUSION …………………………………………35
APPENDIX A …………………………………………..1a
APPENDIX B ………………………………………….15a
APPENDIX C …………………………………………16a
APPENDIX D …………………………………………36a

v
TABLE OF AUTHORITIES
CASES
Ahmed v. Dragovich, 297 F.3d 201 (3d Cir.
2002)...25-26
Allmerica Fin. Life Ins. & Annuity Co. v. Llewellyn,
139 F.3d 664 (9th Cir. 1997)…………………………..24
Ark. Teacher Ret. Sys. v. Netflix, Inc. (In re Netflix
Sec. Litig.), 647 F. Appx. 813 (9th Cir. 2016)……....22
Arthur v. Maersk, Inc., 434 F.3d 196 (3d Cir.
2006)……………………………………………………...15
Ball v. JPMorgan Chase Bank, N.A., 2014 U.S. Dist.
LEXIS 9365 (M.D. Ga. 2014)………………………….28
Benson v. JPMorgan Chase Bank, N.A., 673 F.3d
1207 (9th Cir. 2012)………………………..…………..22
Bose Corp. v. Consumers Union, 466 U.S. 485
(1984)………………………………………………….….33
Brown v. J. Kaz, Inc., 581 F.3d 175 (3d Cir. 2009)..16
Bus. Guides, Inc. v. Chromatic Communs. Enters.,
498 U.S. 533 (1991)……………………………….……33
Celotex Corp. v. Edwards, 514 U.S. 300
(1995)………………………………………………....33-34

vi
City of Hallandale Beach Police v. LifeLock, Inc. (In
re Lifelock Sec. Litig.), 690 F. Appx. 947 (9th Cir.
2017)………………………………………………..…21-22
Cureton v. NCAA, 252 F.3d 267 (3d Cir. 2001)…….29
Czeremcha v. Int’l Ass’n of Machinists and Aerospace
Workers, AFL-CIO, 724 F.2d 1552 (11th Cir.
1984)………………………………………………..…25-26
David Johnson Constr. Co. v. Clearing Consulting,
Inc., 722 F. Appx. 934 (11th Cir. 2018)…………..….27
Dussouy v. Gulf Coast Inv. Corp., 660 F.2d 594, (5th
Cir. 1981)…………………………………...……23, 25-25
Eldridge v. Block, 832 F.2d 1132 (9th Cir. 1987)….32
Fed. Hous. Fin. Agency v. Deloitte & Touche, LLP,
2017 U.S. Dist. LEXIS 66381 (S.D. Fla. 2017) ……28
Foman v. Davis, 371 U.S. 178 (1962)………………..1,
11-16, 21, 23-28, 32, 34
Friends of the Wild Swan Inc. v. Thorson, 2019 U.S.
Dist. LEXIS 104536 (D. Or. 2019)……………….….22
Furr v. TD Bank, N.A., 587 B.R. 743 (S.D. Fla.
2018)……………………………………………………..27
Friedman v. Market Street Mortg. Corp., 520 F.3d
1289 (11th Cir. 2008)………………………………....27

vii
Glynn-Brunswick Hosp. Auth. & Se. Ga. Health Sys.
v. Becton, Dickson & Co., 2016 U.S. Dist. LEXIS
183899 (S.D. Ga. 2016)…………………………...……28
Grant v. Baetz, 225 F. Appx. 471 (9th Cir. 2007)….22
Grupo Mexicano De Desarrollo v. All. Bond Fund,
527 U.S. 308 (1999)………………………..…….……..33
Henry v. Adventist Health Castle Medical Center,
970 F.3d 1126 (9th Cir. 2020) ………………….………4
Henry v. Adventist Health Castle Medical Center,
2020 U.S. App. LEXIS 30568 (9th Cir. 2020) ……….4
Henry v. Adventist Health Castle Medical Center,
363 F. Supp. 3d 1128 (D. Haw. 2019) ……………......4
Henry v. Adventist Health Castle Medical Center,
2019 U.S. Dist. LEXIS 69805, 2019 WL 1840843 (D.
Haw. 2019) ……………………………………………….4
Hickman v. Taylor, 329 U.S. 495 (1947)……………33
Jacobs v. Tempur-Pedic Int'l, Inc., 626 F.3d 1327
(11th Cir. 2010)…………………………………14, 25-27
Laber v. Harvey, 438 F.3d 404, 427 (4th Cir.
2006)……………………………………………...13, 16-18
Leisure Caviar, LLC v. U.S. Fish & Wildlife Serv.,
616 F.3d 612 (6th Cir. 2010)…………………….……29

viii
Lindauer v. Rogers, 91 F. 3d 1355
(9th Cir. 1996) ………………...10-11, 14, 21-24, 31-32
Madura v. Lakebridge Condo. Ass'n,, 382 F. Appx.
862 (11th Cir. 2010)…………………………….……...27
Matrix Capital Mgmt. Fund, L.P. v. Bearing Point,
Inc., 576 F.3d 172 (4th Cir. 2009)…………....13, 18-19
Nedeltchev v. Sheraton St. Louis City Ctr. Hotel &
Suites, 335 F. Appx. 656 (8th Cir. 2009)……...…29-30
Nicholl v. AG, 769 F. Appx. 813 (11th Cir. 2019)....28
OJ Commerce, LLC v. Ashley Furniture Indus., 817
F. Appx. 686 (11th Cir. 2020)………………….…..… 28
Pamc, Ltd. v. Nat’l Union Fire Ins. Co., 2019 U.S.
Dist. LEXIS 85470 (C.D. Cal. 2019)……………...….22
P’ship v. Blix St. Records, Inc., 384 F. Appx. 622 (9th
Cir. 2010)…………………………………………………22
Plestina v. Baetz, 225 F. Appx. 470 (9th Cir.
2007)………………………………………………………22
ProPortion Foods, LLC v. Master Prot., LP, 2019
U.S. Dist. LEXIS 228661 (C.D. Cal. 2019)……….…22
Proskauer Rose, Ltd. Liab. P’ship v. Blix St. Records,
Inc., 384 F. Appx. 622 (9th Cir. 2010)…………….....22
Ruby Helm v. Resolution Trust Corp., 84 F.3d 874
(7th Cir. 1996)…………………………………….…24-25

ix
Runnion v. Girl Scouts of Greater Chi. & Nw. Ind.,
786 F.3d 510 (7th Cir. 2015)………………….13, 19-21
Segal v. Mass. Mut. Life Ins. Co., 10 F. Appx. 451
(9th Cir. 2001)…………………………………….…….22
Seymour v. Thornton, 79 F.3d 980, 987 (10th Cir.
1996)………………………………………………………24
Societe Internationale Pour Participations v. Rogers,
357 U.S. 197 (1958)…………………………………….33
Tool Box, Inc. v. Ogden City Corp., 419 F.3d 1084
(10th Cir. 2005)………………………………………….30
United States ex rel. Atkins v. McInteer, 470 F.3d
1350 (11th Cir. 2006) ………………………………25-27
Walsh v. Countrywide Home Loans, Inc., 2009 U.S.
Dist. LEXIS 120196 (N.D. Cal. 2009)…………….…22
Vielma v. Eureka Co., 218 F.3d 458 (5th Cir.
2000)……………………………………………………...29
Weeks v. Bayer, 246 F.3d 1231 (9th Cir.
2001)…………………………………………...…14, 24-25
Wilburn v. Pepsi-Cola Bottling Co., 492 F.2d 1288
(8th Cir. 1974)………………………………..…………23
Williams v. Citigroup Inc., 659 F.3d 208 (2d Cir.
2011)………………………………………….………….28

x
STATUTES
28 U.S.C. § 1254 …………….……..….…………………4
28 U.S.C. § 2101 …………………………………………4
42 U.S.C. § 1981 …………….2, 4-5, 9-10, 15-17, 30-31
42 U.S.C. § 2000e et seq. ….....…2, 8-10, 15, 17, 30-32
RULES
Federal Rule of Civil Procedure 1……………………30
Federal Rule of Civil Procedure 15 ……………1, 5, 34
Federal Rule of Civil Procedure 56 …………………..8
Federal Rule of Civil Procedure 59 ..…2, 5, 15, 30, 34
Federal Rule of Civil Procedure 60 ……..……2, 30, 34
Supreme Court Rule 13 …...………………………..… .1
OTHER
Wright, Miller, and Kane, Federal Practice &
Procedure………………………………………………...26

1
PETITION FOR WRIT OF CERTIORARI
A common scenario in district court litigation
after the court grants a motion for summary
judgment or dismissal of the complaint, is that the
plaintiff seeks to amend the complaint in order to
correct any shortcomings that resulted in the adverse
ruling. Based upon the policy favoring adjudication
of claims on their merits, this Court in Foman v.
Davis, 371 U.S. 178 (1962), held that such a postjudgment motion for leave to file amended complaint
should be decided under the same liberal standards
of Rule15(a) as a similar motion filed prior to the
entry of the judgment. Over the years, a split among
the circuits has developed whereby some circuits
adhere to the liberal standards enunciated in Foman
while other circuits developed different analytical
frameworks providing for a more restrictive review of
a post-judgment motion to amend, or even refusing
to entertain such a motion unless the judgment is
first vacated. The Ninth Circuit in this case adopted
the latter approach precluding the plaintiff from
having his claims adjudicated on their merits at a
relatively early stage of the litigation.
Petitioner David E. Henry, M.D. is a highly
qualified young surgeon who was recruited by
Respondent Castle Medical Center to work in Hawaii
as a bariatric and general surgeon after completion
of his fellowship training. Within the first few
months of his employment he developed a thriving
practice that competed with the local surgeons of
Asian ancestry.
The locals instigated an
investigation, suspension and eventual termination
of Dr. Henry on fabricated charges of failure to meet

2
standards of care, which ruined his career as a
surgeon. Dr. Henry, who is of the Caucasian race,
filed the complaint in this case asserting claims for
racial discrimination and retaliation under Title VII
of the Civil Rights Act of 1964.
Castle filed a motion for summary judgment
based upon the sole argument that Dr. Henry was
not its employee but an independent contractor and,
therefore, did not have standing under Title VII.
The District Court issued an order granting
summary judgment in favor of Castle. Dr. Henry
filed a post-judgment motion under Rules 59(e) and
60(b) for reconsideration and for leave to file an
amended complaint to assert claims under 42 U.S.C.
§ 1981 and other claims. A claim under 42 U.S.C. §
1981 would moot the employment issue because it
allows an independent contractor to sue for racial
discrimination and retaliation.
The District Court denied the motion for
reconsideration and refused to consider the motion
for leave to amend the complaint, citing the Ninth
Circuit precedent. Dr. Henry appealed and the
Ninth Circuit affirmed the District Court’s decision
citing the same precedent. As a result, Dr. Henry
was deprived of an opportunity to have his claims
adjudicated on their merits.
More broadly, the result in the Ninth Circuit
drastically limits availability of post-judgment
amendment to the complaint because it requires that
a post-judgment motion to modify an adverse
judgment must be successful on other grounds in
order to be able to amend the complaint. Such a
modification upon a motion for reconsideration or

3
similar post-judgment motion is limited to
exceptional circumstances and most often is not
available.
Therefore, an amendment to the
complaint often is the only way to proceed with the
action.
In the Ninth Circuit, that option is
foreclosed.
This results in a sharp split among the circuits.
In the Ninth Circuit, a post-judgment motion to
amend the complaint is denied offhand if the
judgment is not first set aside pursuant to a motion
to vacate. In the Fourth and Seventh Circuits, the
same post-judgment motion, if timely filed with a
motion to vacate the judgment, is evaluated under
the same standards as a similar motion filed before
the judgment was entered and unless the court finds
futility, undue delay, prejudice, or bad faith, the
motion will be granted together with the motion to
vacate.
This Court’s intervention is warranted to resolve
the conflicting standards applied by different circuits
and ensure national uniformity in applying the
liberal standard set forth in Foman. In countless
cases plaintiffs seek to amend their complaints postjudgment in order to pursue valid, meritorious
claims when the original complaint was dismissed
due to failure to plead relevant causes of action or a
similar defect. Unless this Court grants the petition
and issues a writ of certiorari, the outcome for such
plaintiffs will depend upon the circuit where the suit
is brought. In many cases, matters of public interest,
such as a physician’s professional reputation and his
ability to serve the community, are at stake.
Dr. Henry’s petition should be granted.

4
DECISION BELOW
The decision of the Ninth Circuit Court of
Appeals is reported at 970 F.3d 1126 and is
reproduced in Appendix A at 1a-14a. The decision of
the Ninth Circuit denying petition for rehearing en
banc is unpublished but is available at 2020 U.S.
App. LEXIS 30568 and is reproduced at Appendix
B 15a. The decision of the United States District
Court for the District of Hawaii is reported at 363 F.
Supp. 3d 1128 and is reproduced in Appendix C at
16a-34a.
The decision denying motion for
reconsideration is available at 2019 U.S. Dist. LEXIS
69805 and 2019 WL 1840843 and is reproduced in
Appendix D at 36a-47a.
JURISDICTION
The Opinion of the court of appeals and its
judgment were issued on August 14, 2020.
Petitioner timely petitioned for panel rehearing
and/or rehearing en banc and the petition was denied
on September 24, 2020. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1). This Petition is
timely under 28 U.S.C. § 2101(c) and the Rules of the
Supreme Court of the United States Rule 13 because
it is being filed within 90 days after the entry of the
denial of the petition for rehearing.
STATUTORY PROVISIONS INVOLVED
Section 1981 of Title 42 of the United States Code
provides in relevant part:

5
(a) Statement of equal rights. All
persons within the jurisdiction of the
United States shall have the same right
in every State and Territory to make
and enforce contracts, to sue, be parties,
give evidence, and to the full and equal
benefit of all laws and proceedings for
the security of persons and property as
is enjoyed by white citizens, and shall
be subject to like punishment, pains,
penalties, taxes, licenses, and exactions
of every kind, and to no other.
Rule 15(a) of the Federal Rules of Civil Procedure
provides in relevant part:
(a) Amendments Before Trial.
....
(2) Other Amendments. In all other
cases, a party may amend its pleading
only with the opposing party’s written
consent or the court’s leave. The court
should freely give leave when justice so
requires.
Rule 59(e) of the Federal Rules of Civil Procedure
provides:
(e) Motion to Alter or Amend a
Judgment. A motion to alter or amend
a judgment must be filed no later than
28 days after the entry of the judgment.

6
STATEMENT OF THE CASE
Dr. Henry is a board-certified general surgeon
who has received training in minimally invasive and
bariatric surgery at the highest possible level
specializing in state of the art laparoscopic and
robotic surgery, the latest medical techniques that
allow patients to avoid “
open” surgeries and have
increased survival, reduced length of hospital stay,
and decreased complications and infections.
Excerpts of Record (ER) vol. II at 136-37. Following
completion of his fellowship in 2015, he was
recruited to work for the bariatric surgery program
at the Castle Medical Center in Hawaii, and also
worked as an on-call general surgeon for the
emergency departments at Castle Medical Center
(Castle) and the Queen’s Medical Center (Queen’s),
the largest medical center in Hawaii. Id.
Dr. Henry quickly became one of the busiest
surgeons at Castle and Queen’s competing with
established local groups of surgeons of Asian origin.
As a Caucasian newcomer to Hawaii, he was the
subject of discriminatory treatment relative to his
peers of Asian origin, which intensified as he was
perceived to be a threat to the local surgeons. He
complained of discrimination to Castle’s Director of
Medical Staff Services in a May 18, 2016 meeting, in
which he identified as the discriminating official an
influential surgeon of Asian origin holding the
positions of both Vice President of Medical Affairs at
Castle and Medical Director of the Queen’s
Transplant Center. Id. at 113.
Within days after his May 18, 2016 complaint of
discrimination, Castle commenced a review of all

7
surgeries performed by Dr. Henry at Castle, even
though there were no complaints regarding his
performance.
Castle sent several of his most
complex and risk-laden cases for an external peer
review, which alleged minor deviations from the
standard of care in some cases. Id. at 114. Dr.
Henry vigorously disputed the allegations and
submitted evidence that the criticisms of his
surgeries were unjustified, including a report of a
nationally recognized expert who concluded that any
decision to sanction or discipline Dr. Henry over any
of the cases reviewed would be unsupportable and a
miscarriage of a medical staff’s obligation to conduct
ethical and proper peer review. Id. at 114.
Castle ignored Dr. Henry’s evidence. Temporary
suspension of Dr. Henry’s clinical privileges imposed
in June 2016 was continued permanently by Castle’s
Medical Executive Committee in August 2016
without a hearing. Id. at 116-17. At a hearing
requested by Dr. Henry and conducted by Castle one
year later, on August 1 and 2, 2017, the hearing
committee ignored all expert testimony presented
and merely concluded that the Medical Executive
Committee’s process was “
fair” and its actions
“
warranted.” Id. at 117-18. Due to the continued
suspension and a biased, negative report filed by
Caste with the National Practitioner Data Bank, Dr.
Henry was not able to practice at any hospital in the
United States and his career was ruined.
On February 21, 2017, Dr. Henry filed a
complaint with the EEOC in which he alleged that
Castle and its officials discriminated against him
because he is Caucasian, and that they retaliated

8
against his complaints of discrimination in May 2016
by abusing the medical peer review system to
engineer a suspension of his clinical privileges. On
November 7, 2017, he received a right to sue letter
from the EEOC. On February 2, 2018, Dr. Henry
timely filed a complaint against Castle in the United
States District Court for the District of Hawaii in
which he asserted one count of violations of his civil
rights pursuant to Title VII of the Civil Rights Act of
1964, 42 U.S.C. § 2000e et seq. In filing the
complaint, Dr. Henry was proceeding pro se because
he could not find an attorney to represent him. ER
vol. II at 111-13. The District Court had jurisdiction
over the suit pursuant to 42 U.S.C. § 2000e-5(f)(1),
inasmuch as the complaint was filed within 90 days
of receipt of the right to sue letter.
Castle took advantage of Dr. Henry’s lack of legal
representation and focused the proceeding in the
District Court solely upon the issue of whether Dr.
Henry was its employee. Castle conducted discovery
with respect to that issue in which Dr. Henry was
severely disadvantaged proceeding pro se.
On
September 10, 2018, Castle filed a Motion for
Summary Judgment asserting that Dr. Henry was
an independent contractor and not an employee and
therefore did not have standing to pursue claims
against Castle under Title VII. On October 11, 2018,
still proceeding pro se, Dr. Henry filed his opposition
to Castle’s motion for summary judgment.
At the hearing of the motion for summary
judgment, on November 30, 2018, counsel for Dr.
Henry first appeared and the District Court
continued the hearing to December 14, 2018. At the

9
hearing on December 14, 2018, Dr. Henry’s counsel
urged the Court to grant a continuance pursuant to
Rule 56(d) and (e) in order to allow him to
supplement the record and/or conduct further
discovery needed to obtain the evidence supporting
his opposition, but that request was not addressed by
the Court. On January 28, 2019, the District Court
filed an Order Granting Motion for Summary
Judgment and a final judgment. Appendix A. It
essentially adopted Castle’s version of the underlying
facts and on that basis concluded that as a matter of
law, Dr. Henry was not an employee of Castle for the
purposes of Title VII.
On February 20, 2019, Dr. Henry timely filed a
Motion for Reconsideration of Order Granting Motion
for Summary Judgment and/or Motion for Leave to
Amend Complaint, pursuant to the Federal Rules of
Civil Procedure Rules 59(e) and 60(b). In the Motion
for Reconsideration, Dr. Henry urged the need to
supplement the record because, due to his pro se
status, his opposition, declaration, and other
materials submitted in opposition lacked the clarity
and focus needed to effectively oppose the motion. He
also sought leave to amend his Complaint in order to
assert claims under 42 USC § 1981 for racial
discrimination and retaliation in the context of a
contractual relationship, such as the independent
contractor relationship alleged by Castle and found
by the District Court in this case, as well as claims
under Hawaii state law and for violations of his due
process rights.
On April 24, 2019, the District Court filed an
Order Denying Plaintiff’s Motion for Reconsideration

10
and/or for Leave to File Amended Complaint.
Appendix B. The Court ignored Dr. Henry’s pleas for
supplementation of the record, and the supplemental
material and argument submitted in the motion for
reconsideration. The District Court reviewed the
motion for reconsideration limiting itself to the
record as it existed prior to the summary judgment
hearing, and denied the motion for reconsideration.
The District Court also denied the motion for leave to
amend the complaint on the basis that after the
entry of summary judgment and denial of the motion
for reconsideration, amendment was not allowed as a
matter of law in the Ninth Circuit, citing Lindauer v.
Rogers, 91 F. 3d 1355, 1357 (9th Cir. 1996).
On May 13, 2019, Dr. Henry timely filed a Notice
of Appeal to the Ninth Circuit Court of Appeals. On
appeal, Dr. Henry argued that his submissions pro se
in the District Court should have been construed
liberally and he should have been allowed to
supplement the record with respect to the evidence
and arguments he presented in opposition to Castle’s
Motion for Summary Judgment, as requested in his
Motion for Reconsideration, and he should have been
allowed to amend his complaint filed pro se in order
to include claims under 42 U.S.C. § 1981. Such an
amendment would allow his discrimination and
retaliation claims to be decided on their merits and
would render moot the issue of whether Dr. Henry
was an employee or independent contractor for the
purposes of Title VII inasmuch as under 42 U.S.C. §
1981 he could pursue his claims of racial
discrimination and retaliation even if he was an
independent contractor.

11
On August 14, 2020, the Ninth Circuit issued an
Opinion in which it affirmed the District Court’s
order granting summary judgment in favor of Castle.
Appendix C. It also affirmed the denial of Dr.
Henry’s post-judgment motion for leave to file an
amended complaint, citing the same language that
the District Court cited from Lindauer, 91 F. 3d at
1357 (“
once judgment has been entered in a case, a
motion to amend the complaint can only be
entertained if the judgment is first reopened under a
motion brought under Rule 59 or 60”). On August
20, 2020, Dr. Henry timely filed a petition for
rehearing en banc. On September 24, 2020, the
Ninth Circuit filed an order denying the petition.
Appendix D.
REASONS FOR GRANTING THE WRIT
The Ninth Circuit’s holding that a court may not
consider a post-judgment motion to amend the
complaint unless it first grants a motion to set aside
the judgment, directly conflicts with this Court’s
opinion in Foman v. Davis, 371 U.S. 178 (1962), and
stands in sharp contrast with the decisions from
several other circuits that correctly apply the
standards generally applicable to such motions
under Rule 15(a). Under Foman and the case law
from the Fourth and Seventh Circuits, a motion for
leave to amend the complaint, filed pre-judgment or
post-judgment, should be granted unless the
amendment is futile, unduly prejudicial, unduly
delayed, or sought in bad faith. By ignoring this
Court’s precedent and the well-reasoned opinions
from the other circuits, the Ninth Circuit split with

12
the other circuits creating a rule that is contrary to
the long-standing policy favoring adjudication of
claims on their merits.
The split in authority
requires this Court’s intervention. A post-judgment
amendment to pleadings is a recurring issue of
national importance because it affects the outcome of
litigation in numerous cases at a crucial point when
the plaintiff’s only option to pursue a potentially
meritorious claim is to amend the complaint. Its
resolution by this Court is necessary to secure
uniformity of a rule of national application.
The rule was clearly stated by this Court many
decades ago in Foman v. Davis, 371 U.S. 178 (1962)
as follows:
The Court of Appeals also erred in
affirming the District Court’s denial of
petitioner’s motion to vacate the
judgment in order to allow amendment
of the complaint. As appears from the
record, the amendment would have
done no more than state an alternative
theory for recovery.
Rule 15 (a) declares that leave to
amend “
shall be freely given when
justice so requires”; this mandate is to
be heeded. If the underlying facts or
circumstances relied upon by a plaintiff
may be a proper subject of relief, he
ought to be afforded an opportunity to
test his claim on the merits. In the
absence of any apparent or declared
reason -- such as undue delay, bad faith
or dilatory motive on the part of the

13
movant, repeated failure to cure
deficiencies by amendments previously
allowed, undue prejudice to the
opposing party by virtue of allowance of
the amendment, futility of amendment,
etc. -- the leave sought should, as the
rules require, be "freely given." Of
course, the grant or denial of an
opportunity to amend is within the
discretion of the District Court, but
outright refusal to grant the leave
without any justifying reason appearing
for the denial is not an exercise of
discretion; it is merely abuse of that
discretion and inconsistent with the
spirit of the Federal Rules.
Foman, 371 U.S. at 182.
I. The Circuits Are Divided Over Standards
Applicable to a Post-Judgment Motion to Amend
the Complaint
The Fourth and the Seventh Circuits, consistent
with Foman, evaluate a post-judgment motion for
leave to amend the complaint “
under the same legal
standard as a similar motion filed before judgment
was entered -- for prejudice, bad faith, or futility.”
Laber v. Harvey, 438 F.3d 404, 427 (4th Cir. 2006);
see also Matrix Capital Mgmt. Fund, L.P. v. Bearing
Point, Inc., 576 F.3d 172, 193-94 (4th Cir. 2009);
Runnion v. Girl Scouts of Greater Chi. & Nw. Ind.,
786 F.3d 510, 521-22 (7th Cir. 2015). In contrast, the
Ninth Circuit, as well as the Eleventh Circuit, apply
an entirely different approach to a post-judgment
motion for leave to amend the complaint. Instead of

14
considering the four factors of delay, prejudice, bad
faith and futility, they refuse to consider a postjudgment motion for leave to amend the complaint
before a motion to vacate the judgment is first
granted for other reasons. See Lindauer v. Rogers,
91 F. 3d 1355, 1357 (9th Cir. 1996); Weeks v. Bayer,
246 F.3d 1231, 1236 (9th Cir. 2001) Jacobs v.
Tempur-Pedic Int'l, Inc., 626 F.3d 1327, 1344 (11th
Cir. 2010) (“
Rule 15(a), by its plain language,
governs amendment of pleadings before judgment is
entered; it has no application after judgment is
entered.”). Different circuits’ diametrically opposite
approaches to a post-judgment motion for leave to
amend result in inconsistent outcomes upon
indistinguishable facts.
This case is indistinguishable from Foman. The
District Court in Foman granted the defendant’s
motion to dismiss on the grounds that an oral
agreement at issue was unenforceable under the
statute of frauds. The plaintiff moved to vacate the
judgment of dismissal and to amend the complaint to
assert claims for recovery in quantum meruit for
performance of the obligations that were
consideration under the unenforceable agreement,
which was denied by the District Court. The Court of
Appeals affirmed holding that there was nothing in
the record to show the circumstances which were
before the District Court in ruling on the motions to
vacate and amend. In that context, this Court held in
Foman that it was an abuse of discretion for the
District Court to deny a motion for leave to amend
without giving a reason justifying the denial “
such as
undue delay, bad faith or dilatory motive on the part

15
of movant, repeated failure to cure deficiencies by
amendments previously allowed, undue prejudice to
the opposing party by virtue of allowance of the
amendment, futility of the amendment.” Id., 371 U.S.
at 182
Like the plaintiff in Foman, Dr. Henry, filed a
post-judgment motion to vacate the judgment
pursuant to Rule 59(e) and a motion for leave to
amend the complaint in order to assert an
alternative theory of recovery, and specifically to
assert discrimination and retaliation under 42 U.S.C.
§ 1981. All of the Foman factors, supra, weigh in
favor of Dr. Henry’s request for leave to file an
amended complaint. Clearly he did not act in bad
faith in seeking to amend his complaint. He simply
was unaware of the cause of action under 42 U.S.C. §
1981 as an alternative to a Title VII cause of action,
until he was finally able to cease representing
himself and located his present counsel who started
advising him. He did not cause any undue delay.
See, e.g., Arthur v. Maersk, Inc., 434 F.3d 196, 20405 (3d Cir. 2006) (holding that a delay of less than a
year from the filing of an initial complaint to the
filing of an amended complaint is rarely, if ever,
sufficient to become undue). Castle deliberately
focused upon the issue of Dr. Henry’s employment
status from the beginning of the case and filed a
motion for summary judgment within eight months
after the complaint solely with respect to that issue.
No substantive discovery was conducted by the
parties with respect to the merits of Dr. Henry’s
discrimination and retaliation claims. Dr. Henry is
merely seeking to add an alternative theory of

16
recovery. Therefore, Castle would not be prejudiced
in any way by the requested amendment. The
amendment is clearly not futile because 42 U.S.C. §
1981 unquestionably provides for a cause of action
for racial discrimination and retaliation in
enforcement of a contract for employment as an
independent contractor. See e.g, Brown v. J. Kaz,
Inc., 581 F.3d 175, 181 (3d Cir. 2009). There were no
prior amendments of the complaint. Therefore, under
Foman, the motion to amend should have been
granted.
A. The Fourth and Seventh Circuits Follow
Foman
A leading case in this area in the Fourth Circuit
is Laber v. Harvey, 438 F.3d 404 (4th Cir. 2006).
The plaintiff in Laber was a federal employee who
was
awarded
compensation
for
religious
discrimination and retaliation in an administrative
proceeding. In the district court, he claimed that the
compensation was insufficient, and also asserted
other claims.
The district court granted the
defendant’s motion for summary judgment on all
counts, holding, inter alia, that the court did not
have jurisdiction over the plaintiff’s claim for
additional compensation. The plaintiff filed a postjudgment motion for reconsideration and to amend
his complaint to assert a new claim for religious
discrimination.
The Fourth Circuit started its
analysis citing the general principle that the liberal
standard of Rule 15(a) for allowing amendments to
pleadings “
gives effect to the federal policy in favor of
resolving cases on their merits instead of disposing of
them on technicalities.” Laber, 438 F.3d at 426

17
(citing Conley v. Gibson, 355 U.S. 41, 48 (1957)). The
Laber court noted that the Fourth Circuit
interpreted Rule 15(a) to provide that its precedent
required that “
leave to amend a pleading should be
denied only when the amendment would be
prejudicial to the opposing party, there has been bad
faith on the part of the moving party, or the
amendment would have been futile.” Id. (quoting
Johnson v. Oroweat Foods Co., 785 F.2d 503, 509
(4th Cir. 1986) (citing Foman, 371 U.S. at 182)).
The Fourth Circuit in Laber acknowledged that
when a motion to amend is filed post-judgment, the
motion may not be granted unless the judgment is
vacated, but held that a “
conclusion that the district
court abused its discretion in denying a motion to
amend, however, is sufficient grounds on which to
reverse the district court’s denial of a Rule 59(e)
motion.” Id. at 428 (citing Foman, 371 U.S. at 182).
Analyzing the Foman factors, the Fourth Circuit
emphasized that the plaintiff did not act in bad faith
because his omission from his original complaint of
the legal theory he sought to pursue in the
amendment was a result of his misinterpretation of
the law that he could not predict and he was diligent
in seeking the amendment as soon as the summary
judgment was entered. Id. Similarly, in the present
case, Dr. Henry acted in good faith in seeking to
amend his complaint because, as a pro se litigant, he
had no way of knowing that 42 U.S.C. § 1981 was an
alternative to Title VII and as soon as he became
aware of the alternative theory, he moved for leave
to amend. The Laber court also observed that the
defendant would not be prejudiced by the

18
amendment because any discovery conducted would
not need to be duplicated inasmuch as the proposed
amendment did not put any new facts at issue but
merely asserted an alternative theory of recovery.
Id. That is precisely the situation in this case as
well, where the only discovery conducted by Castle
concerned the employee status of Dr. Henry. Finally,
the Fourth Circuit noted that the amendment was
not futile even though the plaintiff merely sought to
add the words “
Plaintiff is appealing the finding of
[religious] discrimination…,” because it was enough
to allege a claim for religious discrimination. Id.
Likewise, Dr. Henry’s proposed amended complaint
is not futile as it asserts a valid alternative theory of
recovery. The Laber Court concluded that, “
Because
Laber did not act in bad faith, his proposed
amendment would not prejudice the Army, and the
amendment is not futile, we conclude that the
district court abused its discretion in denying Laber’s
motion for reconsideration and to amend.” Id. at
429.
The Fourth Circuit applied the same analysis in
Matrix Capital Mgmt. Fund, L.P. v. Bearing-Point,
Inc., 576 F.3d 172 (4th Cir. 2009), another case
similar to Dr. Henry’s case. Matrix Capital was an
action by a group of investors who purchased stock of
a consulting firm that lost its value after disclosure
of problems with the firm’s internal controls and
financial reporting. The complaint alleged violations
of the securities laws based upon false or misleading
financial information provided by the defendants.
The district court granted the defendants’ motion to
dismiss under Rule 12(b)(6) for failure to adequately

19
plead scienter, and denied the plaintiffs’ postjudgment motion under Rule 59(e) to alter or amend
the judgment and to amend the complaint. The
Fourth Circuit affirmed the dismissal of the
complaint but reversed the denial of the motion to
amend. The Martix Capital court emphasized that
“
a post-judgment motion to amend is evaluated
under the same legal standard--grounded on Rule
15(a)--as a similar motion filed before judgment was
entered.” Id., 576 F.3d at 193 (quoting Laber, 438
F.3d at 427 (quoting Foman, 371 U.S. at 182)). The
Fourth Circuit concluded that the district court
abused its discretion in denying the motion to amend
because it “
made no determinations about prejudice,
bad faith, or futility with respect to the proposed
second amended complaint.”
Id. at 194 (citing
Foman, 371 U.S. at 182). The Fourth Circuit noted
that the plaintiffs were not responsible for any delay
or wasted any opportunity to adequately plead their
causes of action. Id. There appeared to be no basis
to find prejudice because the amendment would
merely add specificity to the factual allegations
already made, and the additional allegations, which
the district court did not consider, appeared to weigh
in favor of an inference that the defendants acted
with scienter, so that the amendment would not be
futile. Id. at 194-96. The Matrix Capital case
illustrates the rule in the Fourth Circuit that the
district court’s failure to apply the Rule 15(a)
standards post-judgment is a reversible error.
The Seventh Circuit clarified the proper approach
to post-judgment motions for leave to amend
complaints in Runnion v. Girl Scouts of Greater Chi.

20
& Nw. Ind., 786 F.3d 510 (7th Cir. 2015). Runnion
was an action by a hearing-impaired minor who
alleged that the defendant Girl Scouts violated the
anti-discrimination provisions of the Rehabilitation
Act of 1974 when it stopped providing her with sign
language interpreters that she needed to participate
in group activities. The district court dismissed the
case under Rule 12(b)(6), finding that the plaintiff
had failed to allege sufficiently that the Girl Scouts
was subject to the Rehabilitation Act. The plaintiff
filed a motion to alter the judgment under Rule 59(e)
and for leave to file an amended complaint under
Rule 15(a). The district court allowed only a limited
amendment and ultimately granted the defendant’s
motion to dismiss the amended complaint.
On appeal to the Seventh Circuit, the defendant
argued that the liberal standard for amending
complaints should not apply to a post-judgment
motion to amend that was made as a part of a motion
to modify a final judgment under Rule 59(e). The
Seventh Circuit in Runnion rejected that argument.
See Runnion, 786 F.3d at 520-22. The Runnion court
acknowledged that when a district court has entered
a final judgment of dismissal, the plaintiff cannot
amend under Rule 15(a) unless the judgment is
modified, either under Rule 59(e) or 60(b), which “
are
reserved for extraordinary cases”.
Id. at 521.
However, “
the extraordinary nature of these
remedies does not mean that a different standard
applies— at least when judgment was entered at the
same time the case was first dismissed. When the
district court has taken the unusual step of entering
judgment at the same time it dismisses the

21
complaint, the court need not find other
extraordinary circumstances and must still apply the
liberal standard for amending pleadings under Rule
15(a)(2).” Id. The Runnion court discussed Foman
as the authority supporting its approach. See id.
Thus, the Seventh Circuit applies “
that same liberal
policy of amendment when reviewing district court
decisions on post-judgment motions for leave to
amend.” Id. “
As with pre-judgment motions for
leave to amend, the district court must still provide
some reason— futility, undue delay, undue prejudice,
or bad faith— for denying leave to amend, and we
will review that decision under the same standard
we would otherwise review decisions on Rule 15(a)(2)
motions for leave to amend.” Id. at 522.
B. The Ninth and Eleventh Circuits Ignore
Foman
The Ninth Circuit and the Eleventh Circuit split
from the Fourth and Seventh Circuits and from
Foman. In the Ninth Circuit, the courts refer to the
case of Lindauer v. Rogers, 91 F.3d 1355, 1357 (9th
Cir. 1996), for the proposition that “
once judgment
has been entered in a case, a motion to amend the
complaint can only be entertained if the judgment is
first reopened under a motion brought under Rule 59
or 60.” Both the Ninth Circuit and the District Court
in this case disposed of Dr. Henry’s motion for leave
to amend his complaint with a reference to Lindauer.
Likewise, numerous other decisions in the Ninth
Circuit rely upon Lindauer to outright deny, refuse
to consider, or deem untimely a post-judgment
motion to amend the complaint if the judgment is not
first vacated for other reasons pursuant to Rules

22
59(e) or 60(b). See, e.g., City of Hallandale Beach
Police v. LifeLock, Inc. (In re Lifelock Sec. Litig.), 690
F. Appx. 947 (9th Cir. 2017); Ark. Teacher Ret. Sys.
v. Netflix, Inc. (In re Netflix Sec. Litig.), 647 F. Appx.
813 (9th Cir. 2016); Benson v. JPMorgan Chase
Bank, N.A., 673 F.3d 1207 (9th Cir. 2012); Proskauer
Rose, Ltd. Liab. P’ship v. Blix St. Records, Inc., 384
F. Appx. 622 (9th Cir. 2010); Grant v. Baetz, 225 F.
Appx. 471 (9th Cir. 2007); Plestina v. Baetz, 225 F.
Appx. 470 (9th Cir. 2007); Segal v. Mass. Mut. Life
Ins. Co., 10 F. Appx. 451 (9th Cir. 2001); Pamc, Ltd.
v. Nat’l Union Fire Ins. Co., 2019 U.S. Dist. LEXIS
85470 (C.D. Cal. 2019); ProPortion Foods, LLC v.
Master Prot., LP, 2019 U.S. Dist. LEXIS 228661
(C.D. Cal. 2019); Friends of the Wild Swan Inc. v.
Thorson, 2019 U.S. Dist. LEXIS 104536 (D. Or.
2019); Walsh v. Countrywide Home Loans, Inc., 2009
U.S. Dist. LEXIS 120196 (N.D. Cal. 2009).
Lindauer was an action brought by the plaintiffs,
husband and wife, against the defendant attorney
who represented the husband’s former wife, for
malicious prosecution and abuse of process arising
from the attorney’s efforts to hold the husband in
contempt for failure to fulfill an assignment of
earnings. After the district court entered summary
judgment in favor of the defendant, the plaintiffs
filed a motion under Rule 59 and a motion to amend
their complaint to add a negligence claim. The
district court denied the Rule 59 motion and struck
the motion to amend. The Ninth Circuit affirmed
deciding “
to adopt the requirement that, once
judgment has been entered in a case, a motion to
amend the complaint can only be entertained if the

23
judgment is first reopened under a motion brought
under Rule 59 or 60.” Lindauer, 92 F.3d at 1357. In
doing so, the Ninth Circuit cited cases from other
circuits for the proposition that “
the district court
was without power to hear” a post-judgment motion
to amend if the judgment has not been reopened
under Rule 59 or 60. Id. (citing Dussouy v. Gulf
Coast Inv. Corp., 660 F.2d 594, (5th Cir. 1981); Ruby
Helm v. Resolution Trust Corp., 84 F.3d 874 (7th Cir.
1996); Wilburn v. Pepsi-Cola Bottling Co., 492 F.2d
1288 (8th Cir. 1974); Seymour v. Thornton, 79 F.3d
980, 987 (10th Cir. 1996)).
The Lindauer court’s reliance upon the Fifth
Circuit opinion in Dussouy and the Eighth Circuit
opinion in Wilburn is surprising because they both
applied the liberal standard of Rule 15(a) to a postjudgment motion to amend coupled with a motion to
vacate the judgment under Rule 59(e), extensively
citing and quoting Foman. See Dussouy, 660 F.2d at
597-600 (reversing the district court’s denial of the
plaintiff’s motions to vacate the judgment and amend
the complaint and concluding that the liberal federal
pleading rules required that the plaintiff receive
another opportunity to state his claim); Wilburn, 492
F.2d at 1290-91 (“
we believe that in light of the
Supreme Court’s holding in Foman, supra, and the
provisions of Fed. R. Civ. P. 15(a), the district court
was required, under the showing made by plaintiff,
to set aside the judgment and permit the filing of an
amended complaint.”). On the other hand, in Helm
the Seventh Circuit did not mention Foman and held
that because the plaintiff’s attorney committed
“
inexcusable neglect” by referencing a wrong

24
statutory provision in the complaint, the plaintiff
was not entitled to relief from the judgment under
Rule 60(b), and therefore it was a case where “
it is an
appropriate exercise of discretion to deny a motion to
alter or amend or for relief from judgment without
first looking to the merits of the motion for leave to
amend.” Helm, 84 F.3d at 879-80. Similarly, in
Seymour the Tenth Circuit held, without any
reference to Foman, that it was not an abuse of
discretion for the district court to deny the plaintiff’s
motion to amend filed simultaneously with a Rule
59(e) motion, after the Rule 59(e) motion was denied.
Seymour, 79 F.3d at 987. It should be noted that
neither Helm nor Seymour stand for the proposition
that a district court is “
without power to hear” a
post-judgment motion to amend, for which they were
cited in Lindauer.
The Ninth Circuit confirmed and amplified the
Lindauer holding in Allmerica Fin. Life Ins. &
Annuity Co. v. Llewellyn, 139 F.3d 664 (9th Cir.
1997) and Weeks v. Bayer, 246 F.3d 1231 (9th Cir.
2001). In Allmerica, the Ninth Circuit held that, “
It
is well-settled that once final judgment has been
entered, the district court lacks jurisdiction to decide
a motion to amend unless and until the judgment is
reopened by the granting of a Rule 60 motion. Id.,
139 F.3d at 665 (citing Lindauer, 91 F.3d at 1357).
In Weeks, the Ninth Circuit affirmed the district
court’s denial of a motion to reopen judgment and the
appended motion to amend filed by the plaintiff after
the entry of a judgment on the pleadings under
Rule12(c). The Weeks court held that the plaintiff’s
arguments regarding liberal standards under Rule

25
15(a) were “
inapposite” because “
the issue is not
leave to amend, as Weeks did not seek to amend his
complaint prior to the entry of judgment,” but
whether the court committed a “
clear error” that
required reopening the judgment, which was “
a high
hurdle for Weeks to meet.” Id., 246 F.3d at 1236.
Thus, in the Ninth Circuit, a plaintiff in most
cases is foreclosed from seeking leave to amend the
complaint after a judgment is entered.
In the Eleventh Circuit, the rule precluding a
plaintiff from moving post-judgment to amend the
complaint is stated even more bluntly than in the
Ninth Circuit: “
Rule 15(a) has no application once
the district court has dismissed the complaint and
entered final judgment for the defendant. Postjudgment, the plaintiff may seek leave to amend if he
is granted relief under Rule 59(e) or Rule 60(b)(6)”
Jacobs v. Tempur-Pedic Int’l, Inc., 626 F.3d 1327,
1344 (11th Cir. 2010) (brackets and citations
omitted) (quoting United States ex rel. Atkins v.
McInteer, 470 F.3d 1350, 1361 n.22 (11th Cir. 2006)
(citing Czeremcha v. Int’l Ass’n of Machinists and
Aerospace Workers, AFL-CIO, 724 F.2d 1552, 1556
(11th Cir. 1984); Ahmed v. Dragovich, 297 F.3d 201,
207-09 (3d Cir. 2002); Lindauer, 91 F.3d at 1356;
Dussouy, 660 F.2d at 597 n.1)).
The foregoing rule in the Eleventh Circuit stated
in Jacobs is completely unmoored from this Court’s
analysis in Foman. The rule originated from a
footnote in Adkins, 470 F.3d at 1361 n.22, which
appears to have misinterpreted the opinions in
Czeremcha, Ahmed, and Dussouy. The Czeremcha
court was apparently addressing the right to amend

26
as a matter of course prior to the filing of a
responsive pleading under Rule 15(a)(1), not a
motion for leave to amend under Rule 15(a)(2) at
issue in Adkins and Jacobs, and in that context held
that Rule 15(a) had no applicability after judgment.
Czeremcha, 724 F.2d at 1556. The Ahmed case from
the Third Circuit relied upon the commentary of
Wright, Miller, and Kane, Federal Practice &
Procedure, for its holding that “
the liberality of [Rule
15(a)] is no longer applicable once judgment has been
entered” and that “
at that stage, it is Rules 59 and 60
that govern the opening of final judgments.” Ahmed,
297 F.3d at 207-08. However, the Ahmed court
proceeded to consider the plaintiff’s motion to amend
on its merits and having determined that the
proposed amendment would have been futile,
affirmed the district court’s denial of the motion. Id.
at 208-10. The footnote in Dussouy appears to be a
source of confusion not only in Adkins, but also in
Lindauer, as discussed supra. The footnote states
that “
the disposition of the plaintiff's motion to
vacate under rule 59(e) should be governed by the
same considerations controlling the exercise of
discretion under rule 15(a). Consequently, our
discussion of the motion under rule 15(a) applies
equally to the motion under rule 59(e).” Dussouy,
660 F.2d at 597 n.1 (citing Foman, 371 U.S. 178).
This clearly means, consistent with Foman, that the
liberal standard of a Rule 15(a) motion applies to a
Rule 59(e) motion when the two motions are
conjoined, not the other way around, as Adkins and
Lindauer appear to hold.

27
The foregoing problems with interpretation of the
footnote in Adkins have been recognized by several
district courts in the Eleventh Circuit, which
distinguished or declined to follow the rule in Jacobs
and Adkins. See Furr v. TD Bank, N.A., 587 B.R.
743, 746-49 (S.D. Fla. 2018) (collecting cases)
(concluding that the bankruptcy court abused its
discretion in failing to apply the liberal Foman
standard to a bankruptcy trustee’s motion for
reconsideration or for leave to amend under Rules
15(a) and 59(e) and remanding the case to allow the
court to apply the appropriate standard). In fact,
there is a line of cases in the Eleventh Circuit that
applies the liberal Rule 15(a) standard when a
plaintiff seeks to amend a complaint pursuant to
Rule 59(e) after entry of judgment. See id. (citing
Spanish Broad. Sys. of Fla., Inc. v. Clear Channel
Commc’ns, Inc., 376 F.3d 1065, 1077 (11th Cir. 2004)
(“
In this circuit, ‘[the Foman standard] appl[ies]
when a plaintiff seeks to amend after a judgment of
dismissal has been entered by asking the district
court to vacate its order of dismissal pursuant to
Fed. R. Civ. P. 59(e).’”); Vanderberg v. Donaldson,
259 F.3d 1321, 1326 (11th Cir. 2001); Thomas v.
Town of Davie, 847 F.2d 771, 773 (11th Cir. 1988);
Pioneer Metals, Inc. v. Univar USA, Inc., 168 F.
App'x 335, 336 (11th Cir. 2006)).
However, most courts in the Eleventh Circuit
appear to follow Jacobs and Adkins in refusing to
apply Rule 15(a) post-judgment. See, e.g., Friedman
v. Market Street Mortg. Corp., 520 F.3d 1289, 1293
n.4 (11th Cir. 2008); Madura v. Lakebridge Condo.
Ass'n,, 382 F. Appx. 862, 866 n.5 (11th Cir. 2010);

28
David Johnson Constr. Co. v. Clearing Consulting,
Inc., 722 F. Appx. 934, 937-38 (11th Cir. 2018)
Nicholl v. AG, 769 F. Appx. 813, 816 (11th Cir. 2019);
OJ Commerce, LLC v. Ashley Furniture Indus., 817
F. Appx. 686, 693 (11th Cir. 2020); Nicholl v. Olens,
2018 U.S. Dist. LEXIS 233494 (N.D. Ga. 2018); Fed.
Hous. Fin. Agency v. Deloitte & Touche, LLP, 2017
U.S. Dist. LEXIS 66381 (S.D. Fla. 2017); Ball v.
JPMorgan Chase Bank, N.A., 2014 U.S. Dist. LEXIS
9365 (M.D. Ga. 2014); Glynn-Brunswick Hosp. Auth.
& Se. Ga. Health Sys. v. Becton, Dickson & Co., 2016
U.S. Dist. LEXIS 183899 (S.D. Ga. 2016).
Apart from the split between the Fourth and
Seventh Circuits, which follow Foman, and the Ninth
and Eleventh Circuits, which effectively ignore
Foman, the other circuits developed intermediate
approaches to a post-judgment motion for leave to
amend filed in conjunction with a motion to vacate
the judgment under Rules 59(e) or 60(b). See, e.g.,
Williams v. Citigroup Inc., 659 F.3d 208, 213 (2d Cir.
2011) (“
The standards we have developed for
evaluating postjudgment motions generally place
significant emphasis on the value of finality and
repose . . . , however, th[e] considerations of finality
do not always foreclose the possibility of amendment,
even when leave to replead is not sought until after
the entry of judgment [because] in view of the
provision in rule 15(a) that leave to amend shall be
freely given when justice so requires, it might be
appropriate in a proper case to take into account the
nature of the proposed amendment in deciding
whether to vacate the previously entered judgment. .
. . Under these formulations, postjudgment motions

29
for leave to replead must be evaluated with due
regard to both the value of finality and the policies
embodied in Rule 15.”) (citations, quotations marks,
and brackets omitted); Cureton v. NCAA, 252 F.3d
267, 272-73 (3d Cir. 2001); Vielma v. Eureka Co., 218
F.3d 458, 468 (5th Cir. 2000) (“
While Fed. R. Civ. P.
15(a) endows a district court with virtually unlimited
discretion to allow amendments before entry of
judgment, that discretion narrows considerably after
entry of judgment. Post-judgment amendment to a
complaint can only occur once the judgment itself is
vacated under Fed. R. Civ. P. 59 or 60. In cases
where a party seeks to amend her complaint after
entry of judgment, we have consistently upheld the
denial of leave to amend where the party seeking to
amend has not clearly established that he could not
reasonably have raised the new matter prior to the
trial court’s merits ruling.”) (citations omitted);
Leisure Caviar, LLC v. U.S. Fish & Wildlife Serv.,
616 F.3d 612, 616 (6th Cir. 2010) (“
When a party
seeks to amend a complaint after an adverse
judgment, it thus must shoulder a heavier burden.
Instead of meeting only the modest requirements of
Rule 15, the claimant must meet the requirements
for reopening a case established by Rules 59 or 60. In
post-judgment motions to amend, as a result, the
Rule 15 and Rule 59 inquiries turn on the same
factors. A court acts within its discretion in denying
a Rule 15 and a Rule 59 motion on account of undue
delay--including delay resulting from a failure to
incorporate previously available evidence, and ought
to pay particular attention to the movant’s
explanation for failing to seek leave to amend prior
to the entry of judgment.”) (citations omitted);

30
Nedeltchev v. Sheraton St. Louis City Ctr. Hotel &
Suites, 335 F. Appx. 656 (8th Cir. 2009) (allowing a
plaintiff to amend the complaint to assert claims of
racial discrimination under 42 U.S.C. § 1981 after
the court entered summary judgment against the
plaintiff with respect to claims under Title VII); Tool
Box, Inc. v. Ogden City Corp., 419 F.3d 1084, 108889 (10th Cir. 2005). In general, there is no agreement
even within the circuits as to the proper standard for
evaluating a post-judgment motion to amend filed
together with a motion to vacate the judgment.
II. The Ninth and Eleventh Circuits’ Approach to
Post-Judgment Motions to Amend the Complaint
Is Wrong
The approach of the Ninth and Eleventh Circuits
is clearly wrong because it contradicts the federal
policy of allowing controversies to be decided on their
merits. Their approach is inconsistent with this
Court’s jurisprudence and the jurisprudence of the
circuit courts that considered the balancing of
plaintiffs’
interests
in
pursuing
potentially
meritorious claims and the interests of defendants in
finality of the court’s decisions. While an unlimited
right to amend a complaint is clearly not
appropriate, an opportunity to amend within the
time limits prescribed by the Rules 59(e) and 60(b)
for motions for reconsideration and for relief from
judgment, and subject to the requirements generally
applicable to motion to amend under Rule 15, is
appropriate.
The Ninth Circuit’s refusal to consider a postjudgment motion to amend regardless of its merits is
also contrary to the goal of the Federal Rules of Civil

31
Procedure “
to secure the just, speedy, and
inexpensive determination of every action.” Rule 1.
This case exemplifies the unfair and unreasonable
effect of the Lindauer decision and its progeny.
Dr. Henry, acting in good faith and reasonably
believing that Castle was liable for discriminating
and retaliating against him under Title VII, timely
brought this action in the district court within 90
days after he had received a right to sue letter from
the EEOC. He did not anticipate that his status as
an employee of Castle could be an issue because it
was not raised in the EEOC proceeding and, for all
practical purposes, he was an employee of Castle
given that his practice of surgery was completely
controlled by Castle.
However, Castle raised
technical issues focusing upon agreements Castle
required Dr. Henry to sign as a condition of his
employment, and his compensation structure, tax
treatment and benefits. The issue of Dr. Henry’s
status as an employee of Castle became the sole
focus of the proceeding in the District Court and
within eight months Castle filed a motion for
summary judgment, which was granted by an order
filed less than one year after the complaint was filed.
However, the issue of employment status of Dr.
Henry did not need to be dispositive of the case
because, even if Dr. Henry was an independent
contractor, as the District Court has determined, he
still had the same claims against Castle for
discrimination and retaliation under 42 U.S.C. §
1981. Dr. Henry was simply unaware of this fact as
a pro se litigant. As soon as he became aware of this
alternative theory of recovery, he sought to amend

32
his complaint. He acted in good faith, did not cause
any undue delay, there was not prejudice to Castle,
there were no prior amendments to the complaint,
and the proposed amendment was obviously not
futile. Therefore, under Foman, his motion should
have been granted. However, the District Court
refused to consider Dr. Henry’s motion to amend
based upon the Lindauer case. Such a result is
palpably unfair and wrong.
Furthermore, the fact that Dr. Henry was
proceeding pro se weighs heavily in favor of allowing
the amendment.
The Ninth Circuit itself once
acknowledged that the policy of favoring
amendments to pleadings applied even more
liberally to pro se litigants. See Eldridge v. Block,
832 F.2d 1132, 1135-36 (9th Cir. 1987) (citing
Armstrong v. Rushing, 352 F.2d 836 (9th Cir. 1965)
(holding that a pro se litigant bringing a civil rights
suit must have an opportunity to amend the
complaint to overcome deficiencies unless it is clear
that they cannot be overcome by amendment); Noll v.
Carlson, 809 F.2d 1446, 1448 (9th Cir. 1987); Potter
v. McCall, 433 F.2d 1087, 1088 (9th Cir. 1970)).
However, in this case, it inexplicably refused to
acknowledge the exceptional circumstances of Dr.
Henry’s pro se status. Even more galling is the fact
that Castle is utilizing the dismissal of Dr. Henry’s
action in this case, which was limited to one count of
discrimination and retaliation under Title VII, to
dismiss on res judicata grounds Dr. Henry’s
subsequent actions against Castle in the Hawaii
federal and state courts for breach of contract,
defamation, and denial of due process.

33
III.

The Conflict of Authority Is Exceptionally
Important and Warrants Review

This Court has often granted certiorari to resolve
important questions as to the proper application of
the Federal Rules of Civil Procedure analogous to the
question presented in this case. See, e.g., Societe
Internationale Pour Participations v. Rogers, 357
U.S. 197 (1958) (whether the complaint may be
dismissed pursuant to Fed. R. Civ. P. 37(b) on the
ground that petitioner failed to comply with a
pretrial production order); Bus. Guides, Inc. v.
Chromatic Communs. Enters., 498 U.S. 533 (1991)
(whether Fed. R. Civ. P. 11 imposes an objective
standard of reasonable inquiry on represented
parties who sign pleadings, motions, or other
papers); Hickman v. Taylor, 329 U.S. 495 (1947) (the
extent Fed. R. Civ. P. 26, 33, and 34 allow a party to
inquire into oral and written statements of
witnesses, or other information, secured by an
adverse party’s counsel in the course of preparation
for possible litigation after a claim has arisen); Bose
Corp. v. Consumers Union, 466 U.S. 485 (1984)
(whether Fed. R. Civ. P. 52(a) prescribes the
standard to be applied by the court of appeals in its
review of a district court’s determination that a false
statement was made with the kind of actual malice);
Grupo Mexicano De Desarrollo v. All. Bond Fund,
527 U.S. 308 (1999) (whether, in an action for money
damages, a district court has the power to issue a
preliminary injunction under Fed. R. Civ. P. 65
preventing the defendant from transferring assets in
which no lien or equitable interest is claimed);
Celotex Corp. v. Edwards, 514 U.S. 300 (1995)

34
(whether Fed. R. Civ. P. 65.1 allows enforcement of a
supersedeas bond, posted to stay execution of
judgment against a defendant that filed for
reorganization after the judgment became final,
against the non-bankrupt surety that issued the
bond).
The split of authority among the circuits
presented in this case is exceptionally important and
warrants this Court’s review. The circumstances
presented here are very common. Plaintiffs routinely
seek to amend their complaint after a judgment of
dismissal or summary judgment is entered in favor
of the defendant. The courts favoring finality of
judgments and the expeditious termination of
litigation have eroded the effect of this Court’s
opinion in Foman, which balanced the need for
finality of judgments with the need to have a proper
decision on the merits. In the extreme case of the
Ninth Circuit and the Eleventh Circuit decisions, a
post-judgment motion to amend pursuant to Rule
15(a) is not even considered and the judgment must
be first reopened pursuant to Rules 59(e) or 60(b) on
some other grounds. On the other end of the
spectrum are the decisions of the Fourth Circuit and
the Seventh Circuit that continue to give full effect to
Foman. The other circuits acknowledge the liberal
standard for amendments under Rule 15(a) but limit
its application in the context of a post-judgment
motion by the strict standards for vacating
judgments under Rules 59(e) and 60(b). The result is
fractured circuits and confusion for the courts and
litigants. Intervention of this Court is necessary to
clear the confusion and restore the balance.

35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
DENNIS W. KING
Counsel of Record
JOHN WINNICKI
DEELEY KING PANG & VAN ETTEN
1003 Bishop Street, Suite 1550
Honolulu, HI 96813
Telephone: (808) 533-1751
December 2020

1a
_______________
APPENDIX A
_______________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed Aug. 14, 2020]
No. 19-16010
DAVID E. HENRY, M.D.,
Plaintiff-Appellant,
v.

D.C. No.
1:18-cv-00046JAO-KJM

ADVENTIST HEALTH CASTLE
OPINION
MEDICAL CENTER, DBA
Castle Medical Center,
Defendant-Appellee.
Appeal from the United States District Court
for the District of Hawaii
Jill A. Otake, District Judge, Presiding
Argued and Submitted July 9, 2020
Honolulu, Hawaii
Filed August 14, 2020
Before: John B. Owens, Michelle T. Friedland,
and Ryan D. Nelson, Circuit Judges.
Opinion by Judge Owens

2a
SUMMARY*
Employment Discrimination
The panel affirmed the district court’s grant of
summary judgment in favor of the defendant in a
Title VII action brought by a surgeon who provided
on-call service in a hospital emergency department.
The panel held that Title VII did not protect the
surgeon because he was an independent contractor,
not an employee of defendant Adventist Health
Castle Medical Center. The panel considered the
surgeon’s payment arrangement, his limited
obligations to Castle, and his description as an
independent contractor in the parties’ contracts. The
panel concluded that other factors, including the
surgeon’s high skill level, Castle’s provision of
assistants and medical equipment, and its
mandatory professional standards, did not weigh
strongly in the surgeon’s favor.
COUNSEL
John Winnicki (argued) and Dennis W. King,
Deeley King Pang & Van Etten, Honolulu, Hawaii,
for Plaintiff-Appellant.
Brian W. Tilker (argued), J. George Hetherington,
and Erik A. Rask, Torkildson Katz Hetherington
Harris & Knorek, Honolulu, Hawaii, for DefendantAppellee.
* This summary constitutes no part of the opinion
of the court. It has been prepared by court staff for
the convenience of the reader.

3a
OPINION
OWENS, Circuit Judge:
Dr. David Henry appeals from the adverse
grant of summary judgment against his Title VII
lawsuit. We have jurisdiction under 28 U.S.C. §
1291, and we affirm.
I. BACKGROUND
A. Henry and His Relationship with Castle1
Henry, a white male, is a board-certified
general and bariatric surgeon licensed to practice
medicine in Hawaii. He joined the staff of Adventist
Health Castle Medical Center (“
Castle”) in 2015,
and, with clinical privileges, performed surgeries at
Castle’s facility located in Kailua, Hawaii.
Henry entered into two agreements with
Castle: (1) the Physician Recruitment Agreement
(“
Recruitment Agreement”), and (2) the Emergency
1

The facts summarized below are undisputed. Henry supports
his arguments on appeal with facts from his post-judgment
declaration that were not part of the summary judgment record.
In reviewing orders granting summary judgment, we limit our
review to the facts before the district court at the time it made
its ruling. See Kirshner v. Uniden Corp., 842 F.2d 1074, 1077–
78 (9th Cir. 1988) (explaining that documents submitted to the
district court after it made the ruling challenged on appeal are
excluded from the record). Therefore, we do not consider
Henry’s post-judgment declaration in assessing whether
summary judgment was appropriate.

4a
Department Call Coverage and Uninsured Patient
Services Agreement (“
On-Call Agreement”). The
Recruitment Agreement provided that Henry would
operate a full-time private practice of medicine. The
On-Call Agreement obligated Henry to five days of
on-call service in Castle’s emergency department per
month. Both agreements set forth that Henry “
shall
at all times be an independent contractor.”
While on call, Henry was not required to be
present at Castle’s facility unless an emergency
intervention was needed. If he arranged backup
emergency coverage, he could use that time to
perform elective surgeries instead. Henry also leased
space from Castle for elective surgeries on nonCastle patients. Henry was not required to refer his
general surgery patients to Castle. In addition to his
bariatric surgeries at Castle, he undertook nonbariatric surgeries at a competing hospital, where he
also had clinical privileges.
Castle decided which surgical assistants would
support Henry, supervised their performance and
pay, and determined which medical record system
would be used for care provided at Castle. It also
required Henry to comply with its “
Code of Conduct,”
“
Corporate Compliance Program,” and other
regulations and bylaws.
Castle paid Henry $100 per 24-hour on-call
shift if there was no emergency intervention, or $500
for each emergency that he handled. It issued Henry

5a
a 1099 tax form (an IRS form for independent
contractor income) — never a W-2 (an IRS form for
employee income). He reported his Castle earnings
(which were only 10% of his 2016 income) on a Form
1040, which self-employed individuals use. Castle did
not provide him any employee benefits, such as
medical insurance or retirement.
B. Procedural History
Henry complained of discrimination at Castle,
which initiated a review of his past surgeries. This
assessment led to his precautionary suspension, and,
later, Castle’s Medical Executive Committee
recommended that Henry’s clinical privileges be
suspended until he completed additional training
and demonstrated competency in various areas of
concern. After an internal appellate process upheld
the suspension, Henry filed suit in February 2018 for
alleged violations of Title VII of the Civil Rights Act
of 1964, 42 U.S.C. § 2000e-2 (“
Title VII”), for racial
2
discrimination and retaliation.
Castle moved for summary judgment, arguing
that because Henry was an independent contractor,
and not an employee, he did not enjoy Title VII’s
protections. See Adcock v. Chrysler Corp., 166 F.3d
2

Henry was “
pro se” until local counsel appeared on his behalf
the day before the summary judgment hearing was initially
scheduled. But it soon became clear that separate mainland
counsel (who was not admitted in Hawaii) had been, at least to
some degree, ghostwriting Henry’s submissions since the
complaint’s filing.

6a
1290, 1292 (9th Cir. 1999) (“
Title VII protects
employees, but does not protect independent
contractors.”). After oral argument, the district court
granted that motion. It highlighted how Henry was
paid, his lack of typical employee benefits, and his
tax treatment, as well as how both contracts
characterized his status as an independent
contractor and his ability to work at competing
hospitals. While some factors weighed in Henry’s
favor— including
how
Castle
handled
the
management of assistants and the high skill level
and tools required to perform his surgeries— most of
the evidence pointed towards Henry being an
independent contractor.
II. DISCUSSION
A. Standard of Review
We review de novo a district court’s decision to
grant summary judgment. Folkens v. Wyland
Worldwide, LLC, 882 F.3d 768, 773 (9th Cir. 2018).
Summary judgment is appropriate only if “
there is
no genuine dispute of material fact” after “
viewing
the evidence in the light most favorable to the
nonmoving party.” Id. (citation omitted). Whether an
individual is an employee under Title VII is a
question of law, assuming the material facts are
undisputed. See Bonnette v. Cal. Health & Welfare
Agency, 704 F.2d 1465, 1469 (9th Cir. 1983),
overruled on other grounds by Garcia v. San Antonio
Metro. Transit Auth., 469 U.S. 528 (1985); see also
Cilecek v. Inova Health Sys. Servs., 115 F.3d 256,
261 (4th Cir. 1997).

7a

B. Henry Was Not an Employee of Castle
To determine if an individual is an employee
under Title VII, we evaluate “
the hiring party’s right
to control the manner and means by which the
product is accomplished.” Nationwide Mut. Ins. Co.
v. Darden, 503 U.S. 318, 323 (1992) (citation
omitted); see also Murray v. Principal Fin. Grp., Inc.,
613 F.3d 943, 945 (9th Cir. 2010).3 A non-exhaustive
list of factors we consider include:
- the skill required;
- the source of the instrumentalities and tools;
- the location of the work;
- the duration of the relationship between the
parties;
- whether the hiring party has the right to
assign additional projects to the hired party;
- the extent of the hired party’s discretion over
when and how long to work;
- the method of payment;
- the hired party’s role in hiring and paying
assistants;
- whether the work is part of the regular
business of the hiring party;
- whether the hiring party is in business;
- the provision of employee benefits; and
- the tax treatment of the hired party.
Darden, 503 U.S. at 323–24 (citation omitted); see
also Restatement (Second) of Agency § 220 (1958).

8a
3

Henry appears to argue the economic realities test should
apply. We explained in Murray that there is “
no functional

These factors confirm what the district court
concluded— Henry was an independent contractor,
not an employee.
First, we follow the money. Castle paid Henry
for his on-call time— $100 per shift, or $500 per
emergency intervention— which only accounted for
10% of his earnings. This arrangement is emblematic
of an independent contractor relationship. See
Cilecek, 115 F.3d at 261 (concluding that physician
was an independent contractor in part because
physician’s hours varied, and he did not receive a
uniform salary). Henry did not receive any typical
employee benefits from Castle. See id. (holding that
doctor’s lack of employee benefits weighed in favor of
independent contractor status); Alexander v. Rush N.
Shore Med. Ctr., 101 F.3d 487, 493 (7th Cir. 1996)
(same). Henry and Castle reported Henry’s earnings
to the IRS not as if Henry were a Castle employee,
but as if he were an independent contractor. Castle
issued him a 1099 tax form, not a W-2. See Shah v.
Deaconess Hosp., 355 F.3d 496, 500 (6th Cir. 2004)
(holding that doctor was an independent contractor
in part because he never received a W-2); Cilecek,
115 F.3d at 261 (holding that doctor was an
independent contractor in part because he was taxed
like one). And Henry reported his Castle earnings on
a Form 1040 for self-employed individuals. See
Murray, 613 F.3d at 946 (concluding that insurance
agent who reported as self-employed to the IRS was

9a
difference” between the economic realities test and the Supreme
Court’s common-law test in Darden, and to the extent there is
one, the Darden analysis controls. 613 F.3d at 945. Thus, we
limit our discussion to the Darden formulation.

an independent contractor); Alexander, 101 F.3d at
493 (concluding the same for doctor). We agree with
our sister circuits’ assessment of these factors. Henry
was paid, taxed, and received benefits like an
independent contractor, and these factors weigh in
favor of treating him as one.
Second, Henry’s obligations to Castle were
limited, providing him the freedom to run his own
private practice. This arrangement is inconsistent
with employee status. Henry was required to be on
call in Castle’s emergency department only five days
per month, and under the On-Call Agreement, Castle
was required to prioritize Henry’s obligations when
scheduling him. Henry was free to be elsewhere
during his on-call shifts unless an emergency arose,
and he could perform elective surgeries during his
shifts if he coordinated backup coverage— both of
which are consistent with independent contractor
status. See Barnhart v. N.Y. Life Ins. Co., 141 F.3d
1310, 1313 (9th Cir. 1998) (determining insurance
agent was an independent contractor, as he “
was free
to operate his business as he saw fit without day-today intrusions”); see also Murray, 613 F.3d at 946
(insurance agent, like in Barnhart, was free to
“
decide[] when and where to work, . . . maintain[ed]
her own office, where she [paid] rent,” and
“
schedule[d] her own time off”). Henry also leased
Castle space for elective surgeries on his own
patients, performed general surgeries at a competing

10a
hospital, and could refer his patients to any hospital
of his choosing. Employees normally do not have this
level of work freedom. See Shah, 355 F.3d at 500
(concluding doctor was an independent contractor
where he treated his own patients, engaged with
other hospitals, and did not have to accept patients
referred to him from the hospital); Cilecek, 115 F.3d
at 261 (“
Cilecek had freedom to do other work, not
only for himself but also for other health care
facilities[.]”). In sum, Henry’s duties do not exhibit
the level of control present in employment
relationships,
but
rather
evidence
Henry’s
professional independence from Castle in treating
his patients. See Alexander, 101 F.3d at 493
(concluding anesthesiologist was an independent
contractor
“
because
the
details
concerning
performance of the work remained essentially within
the [doctor’s] control” (citation omitted)).
Third, the contracts between Castle and
Henry described him as an independent contractor, a
fact that our court and others have found significant.
See Barnhart, 141 F.3d at 1313 (“
The contract
Barnhart signed contained clear language stating
that Barnhart would be considered an independent
contractor, not an employee.”); Cilecek, 115 F.3d at
261 (“
The parties expressly set out from the
beginning to create an independent contractor
relationship[.]”).
In arguing that he was an employee, Henry
cites the high skill level that his surgeries require,
Castle’s provision of assistants and medical
equipment, and Castle’s mandatory professional

11a
standards as factors weighing strongly in his favor.
In certain lines of work, these facts might be
persuasive. Yet, as our sister circuits have observed,
in the physician-hospital context, “
[t]he level of skill
required, location of the work, and source of
equipment and staff are not indicative of employee
status because all hospital medical staff are skilled
and must work inside the hospital using its
equipment.” Alexander v. Avera St. Luke’s Hosp.,
768 F.3d 756, 763 (8th Cir. 2014). As the Tenth
Circuit explained, “
[w]hen a physician shows up to
work in today’s world— either as an independent
contractor or a full-fledged employee— he no longer is
likely to carry all relevant medical instruments in a
black satchel.” Tsosie v. United States, 452 F.3d
1161, 1164 (10th Cir. 2006). “
Instead, it is expected
that he will make full use of the hospital’s physical
facilities during the course of his service.” Id.4
It is also no surprise that Castle subjected
Henry to regulations, as hospitals are responsible for
maintaining a certain standard of care and safety for
their patients. As the Fourth Circuit has recognized,
“
[i]f the hospitals did not insist on such details in the
performance of professional services by doctors at
their facilities, they would be exposing themselves to
4

See also Diggs v. Harris Hosp.-Methodist, Inc., 847 F.2d 270,
273 (5th Cir. 1988) (concluding physician was an independent
contractor because “
[w]hile the hospital supplies the tools, staff
and equipment utilized by Diggs in delivering medical care at
the hospital, and while it imposes standards upon those
permitted to hold staff privileges, the hospital does not direct
the manner or means by which Diggs renders medical care”).

12a
recognized professional liability.” Cilecek, 115 F.3d
at 262; see also Wojewski v. Rapid City Reg’l Hosp.,
Inc., 450 F.3d 338, 344 (8th Cir. 2006) (noting
hospital “
could take reasonable steps to ensure
patient safety and avoid professional liability” and
that such steps did not turn all affected doctors into
employees). Thus, rather than evidencing a right to
control the manner and means of Henry’s practice,
the regulations reflect a shared “
professional
responsibility to cooperate with the hospitals to
maintain standards of patient care, to keep
appropriate records, and to follow established
procedures.” Cilecek, 115 F.3d at 262. They are
therefore consistent with an independent contractor
relationship.
Henry heavily relies on Mitchell v. Frank R.
Howard Memorial Hospital, in which this court held
that a physician had sufficiently pled a Title VII
claim. 853 F.2d 762, 766–67 (9th Cir. 1988). Notably,
Mitchell was decided on a motion to dismiss under
the now abrogated “
no set of facts” standard. Id. at
766 (quoting Conley v. Gibson, 355 U.S. 41, 45–46
(1957), abrogated by Bell Atl. Corp. v. Twombly, 550
U.S. 544 (2007)). Further, the physician alleged that
she treated the hospital’s patients (not her own), she
did not work at any other hospital, and the hospital
paid her 40% of the department’s gross receipts—
which was enough to support the claim at the motion
to dismiss stage that the hospital controlled the
manner and means of her performance. Id. at 766–
67. Unlike in Mitchell, Henry treated his own
patients in addition to Castle’s patients, had clinical
privileges at another hospital, and only received 10%

13a
of his compensation from Castle. Thus, Mitchell, a
very different case, does not help Henry.
Henry also points to Salamon v. Our Lady of
Victory Hospital, in which the hospital intensively
reviewed nearly all the physician’s cases on a
continuous basis over several years as part of an
escalating course of performance reviews. 514 F.3d
217, 230–31 (2d Cir. 2008). Not only did the hospital
monitor her patient treatment outcomes, it
mandated the performance and timing of certain
procedures, dictated which medicines to prescribe,
and recommended practice changes based on
financial impact. Id. While the Second Circuit noted
that hospital peer review programs often “
do not
constitute exercises of control over the manner and
means of physician practice,” it held that “
a
reasonable fact-finder could conclude from the
present record that the quality assurance standards
extended beyond mere health and safety concerns or
ensuring [the physician’s] qualifications.” Id. at 231.
Here, Castle did not even approach the level of
micromanagement detailed in Salamon. For
example, while Henry explained that Castle
controlled how he inserted chest tubes and when to
perform laparoscopic surgery, those standards relate
to “
health and safety concerns.” Id. He fails to
identify anything in his case “
beyond mere health
and safety concerns,” such as the considerations that
drove the decision in Salamon. Id. Thus, unlike in
Salamon, Henry did not create a genuine issue of
material fact as to whether the peer review process
created an employment relationship.

14a
On balance, the undisputed facts clearly show
that Henry was Castle’s independent contractor and
thus not entitled to Title VII protections. The district
court properly granted summary judgment.5
AFFIRMED.

5

Henry raises several other issues on appeal, but each lacks
merit. First, the district court did not abuse its discretion in
denying Henry’s request for a continuance to conduct further
discovery and/or supplement the record under Federal Rule of
Civil Procedure 56(d) and (e), as Henry failed to “
identify by
affidavit the specific facts that further discovery would reveal,
and explain why those facts would preclude summary
judgment.” SEC v. Stein, 906 F.3d 823, 833 (9th Cir. 2018), cert.
denied, 140 S. Ct. 245 (2019) (internal quotation marks and
citation omitted). Second, the district court did not abuse its
discretion in denying Henry’s motion for reconsideration under
Federal Rule of Civil Procedure 59(e) because the motion and
Henry’s belated declaration improperly attempted to introduce
additional evidence that “
could reasonably have been raised
earlier in the litigation.” Kona Enters., Inc. v. Est. of Bishop,
229 F.3d 877, 890 (9th Cir. 2000). Lastly, the district court did
not abuse its discretion in denying Henry’s motion to amend his
complaint to add new claims: “
once judgment has been entered
in a case, a motion to amend the complaint can only be
entertained if the judgment is first reopened under a motion
brought under Rule 59 or 60.” Lindauer v. Rogers, 91 F.3d 1355,
1357 (9th Cir. 1996).

15a
_______________
APPENDIX B
_______________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[Filed Sep. 24, 2020]
No. 19-16010
DAVID E. HENRY, M.D.,
Plaintiff-Appellant,
v.

D.C. No.
1:18-cv-00046JAO-KJM

ADVENTIST HEALTH CASTLE
ORDER
MEDICAL CENTER, DBA
Castle Medical Center,
Defendant-Appellee.
Before: OWENS, FRIEDLAND, and R. NELSON,
circuit judges.
The panel has voted to deny Appellant’s petition
for panel rehearing and Petition for rehearing en
banc.
The full court has been advised of the petition for
rehearing en banc, and no Judge of the court has
requested a vote on it.
Appellant’s petition for panel rehearing and
petition for rehearing en banc are DENIED.

16a
_______________
APPENDIX C
_______________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
[Filed Jan. 28, 2019]
DAVID E. HENRY, M.D.,
Plaintiff,
vs.
ADVENTIST HEALTH CASTLE
MEDICAL CENTER and ALAN
CHEUNG, M.D.,

CIV. NO. 1800046 JAO-KJM
ORDER
GRANTING
MOTION FOR
SUMMARY
JUDGMENT,
ECF NO. 37

Defendants.

ORDER GRANTING MOTION FOR SUMMARY
JUDGMENT, ECF NO. 37
I. INTRODUCTION
Plaintiff David E. Henry, M.D. (“
Plaintiff”) asserts
claims for violations of Title VII of the Civil Rights
Act of 1964 (“
Title VII”), 42 U.S.C. § 2000e-5 et seq.,
against Defendant Castle Medical Center, dba

17a
Adventist Health Castle1 (“
Defendant”).2 Compl.,
ECF No. 1. Plaintiff alleges that Defendant
discriminated against him because of his race and
retaliated against him after he complained about the
discrimination. Id.
Currently before the Court is Defendant’s Motion
for Summary Judgment, ECF No. 37. Based on the
following, the Court GRANTS Defendant’s Motion
for Summary Judgment.
II. BACKGROUND
A. Factual Background
Plaintiff is a board-certified general and bariatric
surgeon, who completed his general surgery
residency in 2014 and his bariatric surgery
fellowship in 2015. Def.’s Concise Statement of Facts
(“
CSF”) ¶ 1, ECF No. 38.3 Plaintiff is licensed to
practice medicine in Hawaiʻi. Id. ¶ 2. He specializes
in state-of-the-art laparoscopic and minimally
invasive surgery. Id. Plaintiff entered into a
Physician Recruitment Agreement (“
Recruitment
Agreement”) and an Emergency Department Call
1

Defendant asserts that Plaintiff incorrectly stated
Defendant’s name as “
Adventist Health Castle Medical Center.”
ECF No. 17 at 2. The Court uses the name given by Defendant.
2

Dr. Alan Cheung, M.D. (“
Dr. Cheung”) was a named
defendant in the Complaint. ECF No. 1. After Dr. Cheung filed
a Motion to Dismiss for failure to state a claim, ECF No. 9,
Plaintiff voluntarily dismissed Dr. Cheung as a defendant, ECF
No. 14.
3

Where a fact is not in dispute, the Court cites directly to
Defendant’s CSF. See Local Rule 56.1(g).

18a
Coverage
and
Uninsured
Patient
Services
Agreement (“
On-Call Agreement”) with Defendant in
2015. Id. ¶¶ 4, 5; Def.’s Ex. 2, ECF No. 38-5; Def.’s
Ex. 11, ECF No. 38-14. Under the Recruitment
Agreement, Plaintiff was to operate a full-time
private practice of medicine in his specialty on Oahu.
CSF ¶ 4. Under the On-Call Agreement, Plaintiff
agreed to be on call for Defendant’s emergency
department at least five days per month. Id. ¶ 6.
From September 1, 2015 to June 28, 2016,
Plaintiff was a member of Defendant’s medical staff,
was granted clinical privileges at Defendant’s
hospital, and performed both general and bariatric
surgeries at the hospital. Id. ¶ 3. Plaintiff leased
space at the hospital’s outpatient clinic for his
private medical practice. Id. ¶ 22. Plaintiff was
allowed to use Defendant’s operating rooms for his
private patients upon request. Id. ¶ 23. Plaintiff also
had clinical privileges and performed general
surgeries at The Queen’s Medical Center. Id. ¶ 19.
Plaintiff, who is Caucasian, allegedly complained
to Defendant of discrimination. Decl. of David E.
Henry, M.D. (“
Henry Decl.”) ¶¶ 2, 22, ECF No. 41-1.
After this complaint, Defendant initiated a peer
review of seven of Plaintiff’s surgeries. Id. ¶¶ 9, 22.
As a result of this peer review, Defendant suspended
Plaintiff’s clinical privileges and terminated the OnCall Agreement in June 2016. Id. ¶ 9. It appears that
Defendant’s Medical Executive Committee (“
MEC”)
then conducted a review of Plaintiff’s cases and
issued recommendations via letter in August 2016.

19a
See Pl.’s Ex. E, ECF No. 40-8.4 A Fair Hearing Panel
upheld the MEC decision with some additional
recommendations in September 2017,5 and
Defendant’s appeal board upheld the MEC decision
in January 2018. Henry Decl. ¶ 11; Pl.’s Ex. E, ECF
No. 40-8; Pl.’s Ex. F, ECF No. 40-9. According to
Plaintiff, no patient ever complained about the
quality of Plaintiff’s care, and a review of the
relevant cases by Dr. Garth Jacobsen, a professor of
surgery, found that Plaintiff met the standard of
care. Henry Decl. ¶¶ 9, 10.
B. Procedural History
Plaintiff filed the Complaint pro se on February 2,
2018, alleging one count of racial discrimination and
one count of retaliation for engaging in protected
activities. ECF No. 1. On September 10, 2018,
Defendant filed a Motion for Summary Judgment
(the “
Motion”), ECF No. 37, and a Concise Statement
4

The August 26, 2016 letter containing the MEC’s decision (as
well as the underlying documentation) was not provided by
either party.
5

The Fair Hearing Panel Report additional recommendations
included, in relevant part: (1) the remediation training program
must be mutually agreed upon by Plaintiff and the MEC; (2)
“
[t]he MEC should agree in advance to accept the findings of
the [remediation training] program”; (3) if needed, Defendant
should work with Plaintiff to secure a loan at “
very favorable
terms” for the program; (4) upon successful completion of the
program, Plaintiff’s privileges (with restrictions) and the OnCall Agreement should be reinstated; (5) those restrictions were
that Plaintiff must have at least three laparoscopic cases
proctored by mutually agreed upon Defendant staff or an
outside consultant; and (6) once that review was complete,
Plaintiff would have full privileges restored. Pl.’s Ex. E, ECF
No. 40-8.

20a
of Facts in support of the Motion, ECF No. 38. On
October 11, 2018, Plaintiff filed pro se his
Opposition, ECF No. 40, and his Responsive Concise
Statement of Facts, ECF No. 41. On December 14,
2018, a hearing was held at which Plaintiff was
represented by counsel.
III. STANDARD OF REVIEW
Summary judgment is proper where there is no
genuine issue of material fact and the moving party
is entitled to judgment as a matter of law. Fed. R.
Civ. P. 56(a). Federal Rule of Civil Procedure 56(a)
mandates summary judgment “
against a party who
fails to make a showing sufficient to establish the
existence of an element essential to that party’s case,
and on which that party will bear the burden of proof
at trial.” Celotex Corp. v. Catrett, 477 U.S. 317, 322
(1986); see also Broussard v. Univ. of Cal. at
Berkeley, 192 F.3d 1252, 1258 (9th Cir. 1999).
“
A party seeking summary judgment bears the
initial burden of informing the court of the basis for
its motion and of identifying those portions of the
pleadings and discovery responses that demonstrate
the absence of a genuine issue of material fact.”
Soremekun v. Thrifty Payless, Inc., 509 F.3d 978,
984 (9th Cir. 2007) (citing Celotex, 477 U.S. at 323).
“
When the moving party has carried its burden
under Rule 56[(a)], its opponent must do more than
simply show that there is some metaphysical doubt
as to the material facts [and] come forward with
specific facts showing that there is a genuine issue
for trial.” Matsushita Elec. Indus. Co. v. Zenith
Radio, 475 U.S. 574, 586-87 (1986) (citation and
internal quotation signals omitted); see also

21a
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986) (“
[A] party opposing a properly supported
motion for summary judgment may not rest upon the
mere allegations or denials of his pleading, but . . .
must set forth specific facts showing that there is a
genuine issue for trial.” (citation and quotation
marks omitted)).
“
An issue is ‘genuine’ only if there is a sufficient
evidentiary basis on which a reasonable fact finder
could find for the nonmoving party, and a dispute is
‘material’ only if it could affect the outcome of the
suit under the governing law.” In re Barboza, 545
F.3d 702, 707 (9th Cir. 2008) (citing Anderson, 477
U.S. at 248). When considering the evidence on a
motion for summary judgment, the court must draw
all reasonable inferences on behalf of the nonmoving
party. Matsushita Elec. Indus. Co., 475 U.S. at 587;
see also Posey v. Lake Pend Oreille Sch. Dist. No. 84,
546 F.3d 1121, 1126 (9th Cir. 2008) (stating that “
the
evidence of [the nonmovant] is to be believed, and all
justifiable inferences are to be drawn in his favor.”
(citations omitted)).
IV. DISCUSSION
A. Pro Se Filings
As an initial matter, Plaintiff’s attorney, Mr. John
Winnicki, advised the Court at the hearing that
another attorney, Mr. Robert Meals, had edited
Plaintiff’s pro se pleadings. Accordingly, the Court
addresses whether Plaintiff’s pro se filings should be
construed liberally and concludes that it will
“
liberally construe the ‘inartful pleading’” of Plaintiff.
Eldridge v. Block, 832 F.2d 1132, 1137 (9th Cir.

22a
1987) (quoting Boag v. MacDougall, 454 U.S. 364,
365 (1982) (per curiam)).
The Court is concerned by the fact that Plaintiff
filed several pleadings as a pro se litigant when, in
actuality, he received some assistance from an
attorney in drafting those filings. Generally, the
Court construes pro se filings liberally. See Erickson
v. Pardus, 551 U.S. 89, 94 (2007) (“
A document filed
pro se is to be liberally construed, and a pro se
complaint, however inartfully pleaded, must be held
to less stringent standards than formal pleadings
drafted by lawyers.” (internal citations, quotation
marks, and italics omitted)). However, “
allowing a
pro se litigant to receive such latitude in addition to
assistance from an attorney would disadvantage the
nonoffending party.” Smallwood v. NCsoft Corp., 730
F. Supp. 2d 1213, 1222 (D. Haw. 2010) (quoting
Ricotta v. State, 4 F. Supp. 2d 961, 986 (S.D. Cal.
1998)); see also Casumpang v. Hawaiian Commercial
& Sugar Co., 2013 WL 6191087, at *7 (D. Haw. Nov.
25, 2013), aff’d, 712 F. App’x 709 (9th Cir. 2018).
Further, such “
ghost-writing” by an attorney evades
the responsibilities imposed on counsel by Federal
Rule of Civil Procedure 11. See Smallwood, 730 F.
Supp. 2d at 1222. Lastly, it implicates the Rules of
Professional Responsibility concerning conduct
involving
dishonesty,
fraud,
deceit,
or
misrepresentation. See id.
Although Mr. Winnicki represented at the hearing
that Mr. Meals edited Plaintiff’s pleadings, the
extent to which Mr. Meals assisted Plaintiff is not
otherwise clear. Thus, in an abundance of caution,
the Court will construe Plaintiff’s filings liberally.

23a
Even under this standard, however, the Court finds
in favor of Defendant.
B. Motion for Summary Judgment
Defendant moves for summary judgment on all of
Plaintiff’s claims, arguing that Plaintiff is not
protected under Title VII because he is an
independent contractor rather than an employee.
ECF No. 37 at 2. Plaintiff disagrees, arguing that he
is an employee, or at least, that there is a genuine
issue of material fact concerning whether he is an
employee or an independent contractor. ECF No. 40
at 11-12.
Under Title VII, it is unlawful for an employer:
(1) to fail or refuse to hire or to discharge any
individual, or otherwise to discriminate against
any
individual
with
respect
to
his
compensation, terms, conditions, or privileges of
employment, because of such individual’s race,
color, religion, sex, or national origin; or
(2) to limit, segregate, or classify his
employees or applicants for employment in any
way which would deprive or tend to deprive any
individual of employment opportunities or
otherwise adversely affect his status as an
employee, because of such individual’s race,
color, religion, sex, or national origin.
42 U.S.C. § 2000e-2.
“
Title VII protects employees, but does not protect
independent contractors.” Adcock v. Chrysler Corp.,
166 F.3d 1290, 1292 (9th Cir. 1999). The Ninth
Circuit utilizes the Darden test to determine

24a
whether an individual is an independent contractor
or an employee for Title VII purposes. See Murray v.
Principal Fin. Grp., Inc., 613 F.3d 943, 945 (9th Cir.
2010) (applying Nationwide Mut. Ins. Co. v. Darden,
503 U.S. 318 (1992)). The Darden test evaluates “
the
hiring party’s right to control the manner and means
by which the product is accomplished,” and utilizes
the following non-exclusive factors:
the skill required; the source of the
instrumentalities and tools; the location of the
work; the duration of the relationship between
the parties; whether the hiring party has the
right to assign additional projects to the hired
party; the extent of the hired party’s discretion
over when and how long to work; the method of
payment; the hired party’s role in hiring and
paying assistants; whether the work is part of
the regular business of the hiring party;
whether the hiring party is in business; the
provision of employee benefits; and the tax
treatment of the hired party.
Darden, 503 U.S. at 323-24 (quoting Cmty. for
Creative Non-Violence v. Reid, 490 U.S. 730, 751-52
(1989)). No one factor is decisive. Id. at 324; see also
Aymes v. Bonelli, 980 F.3d 857, 861 (2d Cir. 1992)
(“
The factors should not merely be tallied but should
be weighed according to their significance in the
case.”).
In the summary judgment context, several
Circuits have found no employment relationship
when physicians challenged termination of clinical
privileges. See Wojewski v. Rapid City Reg’l Hosp.,
Inc., 450 F.3d 338, 343 (8th Cir. 2006) (collecting

25a
cases); but see Salamon v. Our Lady of Victory
Hosp., 514 F.3d 217, 231 (2d Cir. 2008) (holding
plaintiff physician had “
demonstrated a genuine
factual conflict regarding the degree of control [the
hospital] exercised over her” and stating that
“
[w]hile summary judgment may be appropriate in
some cases concerning staff physicians suing
hospitals, it is not appropriate in all”).
In Cilecek v. Inova Health System Services, 115
F.3d 256, 260 (4th Cir. 1997), the Fourth Circuit
noted that the consideration of the Darden factors
“
must relate to the particular relationship under
consideration.” The Fourth Circuit explained how the
unique nature of the hospital-physician relationship
necessarily involves a degree of regulation by the
hospital, and accordingly, such regulation ordinarily
does not give rise to an employment relationship:6
All of these [hospital] regulations, however,
relate to the professional standard for providing
health care to patients for which both
[physicians] and [hospitals] had professional
responsibility to their patients. While [the
doctor] certainly retained a professional
independence in performing professional
services, he also shared a professional
responsibility to cooperate with the hospitals to
6

According to the plaintiff in Cilecek, the hospital regulated
“
taking medical histories; conducting physical exams, tests and
other procedures; patient progress notes; the manner of issuing
patient medical orders; prerequisites and post-requisites to
surgical procedures; ordering and administration of
medications and medical devices; obtaining consultations and
referrals; and making entries in medical records.” 115 F.3d at
261-62.

26a
maintain standards of patient care, to keep
appropriate records, and to follow established
procedures. This shared control exists both for
employee doctors and for doctors merely
enjoying practice privileges at a facility. If the
hospitals did not insist on such details in the
performance of professional services by doctors
at their facilities, they would be exposing
themselves to recognized professional liability.
Because of the overarching demands of the
medical profession, the tension in professional
control between doctors and hospitals for
medical services rendered at hospitals is not,
we believe, a reliable indicator of whether the
doctor is an employee or an independent
contractor at the hospital.
115 F.3d at 260 (emphasis added).
Similarly, an on-call arrangement between a
physician and hospital does not render the doctor an
employee of the hospital. In Alexander v. Rush North
Shore Medical Center, 101 F.3d 487, 493 (7th Cir.
1996), the Seventh Circuit explained that the
plaintiff physician did not become an employee due
to the hospital’s requirements that the plaintiff be on
call a specified amount of time per week because the
physician’s work was still “
essentially within the
control of the [physician].” Id. (citing Ost v. W.
Suburban Travelers Limousine, Inc., 88 F.3d 435,
438-39 (7th Cir. 1996)).
The Court applies Darden and other relevant
caselaw to Plaintiff’s case and finds that as a matter
of law Plaintiff was an independent contractor rather
than an employee for Title VII purposes.

27a
Several Darden factors support finding an
independent contractor status in this case, for
example: the provision of employee benefits, the tax
treatment of the hired party, the method of payment,
and the location of the work. Defendant did not
provide Plaintiff with employee benefits, such as
malpractice insurance, paid vacation, sick leave,
parental leave, paid holidays, a pension plan,
retirement benefits, health insurance, worker’s
compensation benefits, or withholding of social
security taxes. CSF ¶ 37; Def.’s Ex. 1, ECF No. 38-4
¶¶ 114-117, 175-77, 181; Def.’s Ex. 5, ECF No. 38-8
¶¶ 22, 23; Def.’s Ex. 11, ECF No. 38-14 at 10. Third
party payors whom Plaintiff billed directly paid
Plaintiff’s surgery income. CSF ¶¶ 7, 8. Defendant
paid less than ten percent of Plaintiff’s earnings, and
the amount it did pay Plaintiff was not uniform. Id.
¶¶ 11, 37, 40. Plaintiff reported his income from
Defendant on a 1099 tax form, and never received a
W-2 form from Defendant. Id. ¶ 39. While Plaintiff
performed all of his bariatric surgeries at Castle,
Henry Decl. ¶ 7, Plaintiff leased space in Defendant’s
outpatient center and saw his own elective general
surgery patients in that space. CSF ¶¶ 20, 22.
Further, Plaintiff also worked at another hospital: he
was on The Queen’s Medical Center on-call list,
obtained general surgery clinical privileges at that
hospital, and performed surgeries there. Id. ¶ 19;
Def.’s Ex. 1, ECF No. 38-4 ¶¶ 26-28, 126.
While Defendant regulated some aspects of
Plaintiff’s practice (such as which surgical assistants
to use, electronic medical record use, and how to
complete patient notes), see Henry Decl. ¶ 13, these

28a
regulations are of the type discussed in Cilecek: they
function as part of the “
shared control” that exists
between hospital and physician based on their
respective professional liabilities. Cilecek, 115 F.3d
at 260. Plaintiff points to Defendant’s use of an
evaluation form from the Metabolic and Bariatric
Surgery Accreditation and Quality Improvement
Program (“
MBSAQIP”), ECF No. 40 at 6-7, as
indicative of the control Defendant exercised.
However, it appears that Defendant used this
evaluation form as part of its accreditation —
MBSAQIP is an accreditation program of the
American College of Surgeons and the American
Society of Metabolic and Bariatric Surgeons. See id.
at 1-2. These regulations did not create an
employment relationship.
Moreover, Plaintiff’s On-Call Agreement was akin
to the agreement in Alexander. Under the On-Call
Agreement, Defendant paid Plaintiff to be on call at
least 5 days a month in the emergency department,
CSF ¶¶ 5, 6, 9. Defendant’s payment of Plaintiff was
not like a salary: while on-call, Plaintiff was paid
$100 per 24-hour shift (if no emergency intervention)
or $500 for each emergency intervention. Id. ¶ 9.
Thus, Plaintiff’s earnings varied depending on how
many emergency interventions occurred, on how
many days Plaintiff was available to be on-call, and
the general surgery call schedule. Id. ¶ 11. While
Plaintiff was required to be on call at least five days
per month, Defendant did not have complete control
over when Plaintiff would be on call. Before the
beginning of each month, Plaintiff informed
Defendant of his availability and, under the On-Call

29a
Agreement, Defendant was required to make “
best
efforts” to accommodate his availability. ECF No. 384 ¶ 105. While on call, Plaintiff was not required to
be on site unless he was informed that an emergency
intervention was necessary. Id. ¶ 110. Plaintiff could
also perform his own elective surgeries while on call,
as long as he arranged for backup coverage. CSF ¶
13.
Although not an enumerated Darden factor, the
Ninth Circuit has also determined that a contract
with clear language stating that the plaintiff would
be considered an independent contractor, not an
employee, supports a finding of independent
contractor status. See Barnhart v. N.Y. Life Ins. Co.,
141 F.3d 1310, 1313 (9th Cir. 1998). In the instant
case, Defendant and Plaintiff made clear that they
were
creating
an
independent
contractor
relationship: prior to Plaintiff beginning to work at
the hospital, the two parties signed two written
agreements that expressly characterized Plaintiff as
an independent contractor. ECF No. 38-5 at 12-14;
ECF No. 38-14 at 11-14. This of course strongly
suggests that Plaintiff was an independent
contractor.
Several Darden factors support finding an
employee status in this case, including: the skill
required, the source of the instrumentalities and
tools, and the hired party’s role in hiring and paying
assistants. Plaintiff performed surgical work that
required much skill and training. See CSF ¶¶ 1, 2.
Defendant provided the instrumentalities and tools
to Plaintiff. Henry Decl. ¶ 15. Defendant hired,
supervised, and paid the staff who assisted Plaintiff.

30a
Henry Decl. ¶ 18. These factors, however, do not
neutralize the other factors and considerations in
favor of a finding that Plaintiff was an independent
contractor.
Plaintiff heavily relies on Salamon to contend that
he was Defendant’s employee. He argues that
Defendant’s peer review process was akin to the
quality assurance program in Salamon that the
Second Circuit found created an employment
relationship.
While the Second Circuit in Salamon found an
employment relationship, it also recognized that
other courts have instead “
found that hospital peer
review programs do not constitute exercises of
control over the manner and means of physician
practice.” Salamon, 514 F.3d at 229 (citing Shah v.
Deaconess Hosp., 355 F.3d 496, 500 (6th Cir. 2004);
Cilecek, 115 F.3d at 262; Alexander, 101 F.3d at 493;
and Diggs v. Harris Hosp.-Methodist, Inc., 847 F.2d
270, 273 (5th Cir. 1988)). However, Salamon
determined that in its case the hospital’s “
quality
assurance program exceeded the control exerted in
[the other cases], particularly as evidenced by what
occurred after the alleged instances of harassment.”
Id.
According to the Salamon plaintiff, after she
complained of sexual harassment by Dr. Michael C.
Moore (a hospital administrator), Dr. Moore and
several complicit doctors used the hospital “
quality
assurance program” to retaliate against her. Id. at
220. The Salamon plaintiff alleged that the
defendants accordingly began to intensively review

31a
nearly every one of her cases, on a continuous basis,
and continued that practice for years. Id. at 229.
Salamon reasoned that state and federal statutes
and regulations “
did not dictate the [hospital’s]
detailed treatment requirements.” Id. at 230. Also,
Salamon explained that, unlike those other cases
that found an independent contractor relationship,
the defendants in Salamon “
did not merely review
the quality of [plaintiff’s] patient treatment outcomes
but went further, by mandating performance of
certain procedures (esophageal dilatation) and the
timing of others (outpatient endoscopies), directing
which medications she should prescribe, and
recommending changes to her practice based on their
financial impact to the department.” Id. at 229.
Further, Salamon addressed the motivations of the
hospital, concluding that the requirements forced on
the plaintiff were “
aimed at maximizing [the
hospital’s] revenue and punishing her for
complaining about Moore’s harassment.” Id. at 230.
Thus, Salamon determined that “
a reasonable factfinder could conclude from the present record that
the quality assurance standards extended beyond
mere health and safety concerns or ensuring
[plaintiff’s] qualifications,” and reversed and
remanded the case. Id. at 231.
Under the present record, even construing all
evidence and inferences therefrom on behalf of
Plaintiff, there is no genuine issue as to whether the
peer review process created an employment
relationship. Plaintiff presents his declaration and
two relevant exhibits to support his argument, but
does not present enough specific facts to show that

32a
the peer review process “
extended beyond mere
health and safety concerns or ensuring [plaintiff’s]
qualifications.” Salamon, 514 F.3d at 231.
Plaintiff states in his declaration that:
[Defendant’s peer review process] objected to
my performing surgical procedures in the
specific manner that I was trained to do them,
specifically when not to perform laparoscopic
surgery, the manner of inserting chest tubes,
the length of time I was taking to perform
various surgical procedures and eventually [the
hospital] mandated that I would have to obtain
additional training in order to return to work at
[the hospital].
Henry Decl. ¶ 22. None of these described objections
appear to relate to anything other than health and
safety matters.
The record is unclear as to what recommendations
resulted from the peer review process. Apparently,
the MEC issued recommendations, which are not in
the record. See, e.g., Pl.’s Ex. E, ECF No. 40-8 at 2
(mentioning the MEC recommendations). The Fair
Hearing Panel Report suggested additional
safeguards, but those further protected Plaintiff from
the type of long-term review in Salamon that had
little basis in quality of care standards. See id. at 45. For example, the report required Defendant to
work with Plaintiff to secure a professional
development loan “
on very favorable terms” to help
him attend a remedial course tailored to the issues

33a
raised with Plaintiff’s standard of care.7 Id. at 4.
Once Plaintiff completed the program, Plaintiff’s
privileges would be restored with the condition that
a mutually-agreed upon proctor review Plaintiff’s
performance in a minimum of three laparoscopic
cases. Id. Upon successful completion of this review,
Plaintiff’s full privileges would be restored. Id.
Plaintiff was therefore not subjected to an endless
and onerous review process of the type described in
Salamon. Moreover, unlike the defendant in
Salamon, Defendant here did not “
recommend[]
changes to [Plaintiff’s] practice based on their
7

Plaintiff conclusively states that the remedial program was
designed to “
dictate the particular details of my medical
practice including, among other things, reducing the length of
time to perform certain surgical procedures, which was
completely unwarranted.” Henry Decl. ¶ 22. As a general
matter, a nonmoving party cannot rely on unsupported,
conclusory allegations in his or her own affidavit to create an
issue of material fact. See Delange v. Dutra Constr. Co., 183
F.3d 916, 921 (9th Cir. 1999) (“
[W]here, as here, the nonmoving
party relies only on his own affidavit to oppose summary
judgment, he cannot rely on conclusory allegations unsupported
by factual data to create an issue of material fact.” (citation and
internal editorial marks omitted)). To assert that the peer
review process was unwarranted, Plaintiff also relies on Dr.
Garth Jacobsen’s letter reviewing his work, Pl.’s Ex. D, ECF
No. 40-7; Pl.’s CSF ¶ 3, ECF No. 41. Plaintiff has provided no
context for Dr. Jacobsen’s letter, even basic information like
why Dr. Jacobsen’s review was performed and the role (if any)
this letter played in the peer review process. Without this
information, the Court gives little weight to Plaintiff’s Exhibit
D. Accordingly, the Court concludes that Plaintiff does not
create an issue of material fact concerning whether the peer
review process was “
completely unwarranted.”

34a
financial impact to the department[,]” Salamon, 514
F.3d at 229, nor does Plaintiff suggest as much.
Accordingly, based on the record available, no
reasonable fact finder could find that Defendant’s
peer review process went beyond ensuring plaintiff’s
work met standards of care. See id. Thus, the peer
review process did not create an employment
relationship.
Construing all evidence and inferences therefrom
on behalf of Plaintiff, Defendant did not have the
“
right to control the manner and means” of Plaintiff’s
practice of medicine, and thus Plaintiff is an
independent contractor for Title VII purposes.
Darden, 503 U.S. at 323 (citing Reid, 490 U.S. at
751). Accordingly, Plaintiff is not protected under
Title VII, and the Motion is granted.
V. CONCLUSION
For the foregoing reasons, Defendant’s Motion for
Summary Judgment is GRANTED.
IT IS SO ORDERED.
DATED: Honolulu, Hawai‘i, January 28, 2019.
/s/ Jill A. Otake, United States District Judge

Henry v. Adventist Health Castle Medical Ctr., et al., Civ No.
18-00046 JAO-KJM, Order Granting Motion for Summary
Judgment, ECF No. 37

35a
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
DAVID E. HENRY, M.D.
Plaintiff,
V.

JUDGMENT IN A
CIVIL CASE
Case: CV 18-00046
JAO-KJM

ADVENTIST HEALTH
CASTLE MEDICAL CENTER;
ALAN CHEUNG, M.D.
Defendants.
[ ] Jury Verdict. This action came before the Court for a
trial by jury. The issues
have been tried and the jury has rendered its verdict.
[V] Decision by Court. This action came for hearing before
the Court. The issues have been heard and a decision has
been rendered.
IT IS ORDERED AND ADJUDGED that summary
judgment is entered in favor of Defendant Adventist
Health Castle Medical Center, pursuant to the Order
Granting Motion for Summary Judgment”, filed on
January 28, 2019, ECF No. 70. Defendant Alan Cheung,
M.D. was previously dismissed from this action, pursuant
to the “
Voluntary Dismissal of Defendant Alan Cheung,
M.D. Without Prejudice Pursuant to FRCP 41(A)(1)(A)(I)”,
filed on March 8, 2018, ECF No. 14.
January 28, 2019
Date

SUE BEITIA
Clerk
/s/ Sue Beitia by ET
(By) Deputy Clerk

36a
_______________
APPENDIX D
_______________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII
[Filed Apr. 24, 2019]
DAVID E. HENRY, M.D.,
Plaintiff,
vs.
ADVENTIST HEALTH
CASTLE MEDICAL
CENTER and ALAN
CHEUNG, M.D.,
Defendants.

CIV. NO. 18-00046
JAO-KJM
ORDER DENYING
PLAINTIFF’S
MOTION FOR
RECONSIDERATION
AND MOTION FOR
LEAVE TO AMEND
THE COMPLAINT,
ECF NO. 73

ORDER DENYING PLAINTIFF’S MOTION FOR
RECONSIDERATION AND MOTION FOR LEAVE
TO AMEND THE COMPLAINT, ECF NO. 73
I. INTRODUCTION
Before the Court is Plaintiff David E. Henry,
M.D.’s (“
Plaintiff”) Motion for Reconsideration of
Order Granting Motion for Summary Judgment
and/or Motion for Leave to Amend Complaint, ECF
No. 73. For the reasons set forth below, the Motion

37a
for Reconsideration and Motion for Leave to Amend
the Complaint are DENIED.
II. BACKGROUND
The Order Granting Motion for Summary
Judgment (“
the Order”) set forth the background in
this action, see Henry v. Adventist Health Castle
Med. Ctr., 2019 WL 346701, at *1 (D. Haw. Jan. 28,
2019), and the Court assumes a familiarity with it.
Plaintiff filed the Complaint pro se on
February 2, 2018, alleging one count of racial
discrimination and one count of retaliation for
engaging in protected activities. ECF No. 1. On
September 10, 2018, Defendant filed a Motion for
Summary Judgment, ECF No. 37, and a Concise
Statement of Facts in support of the Motion, ECF
No. 38. On October 11, 2018, Plaintiff filed his
Opposition, ECF No. 40, and his Responsive Concise
Statement of Facts, ECF No. 41, pro se.1
On November 29, 2018, the day before the hearing on
the Motion for Summary Judgment was originally
scheduled, Plaintiff, through his local counsel John
Winnicki and Dennis King, filed a Motion to
Continue the hearing and simultaneously filed an
Application for Robert Meals to Appear Pro Hac Vice.
ECF Nos. 52, 54. Plaintiff asserted that he retained
Winnicki and King as local counsel the day before,
but that he had previously retained Robert Meals
1

It later came to light that an attorney, Robert Meals, edited
Plaintiff’s pro se pleadings. See Henry, 2019 WL 346701, at *23. In the Order, the Court, “
in an abundance of caution,”
construed Plaintiff’s filings liberally even though he had
received some assistance from an attorney. Id. at *3.

38a
(who had edited his prior pleadings), an attorney
licensed and based on the mainland, to assist him in
this case. ECF No. 52 at PageID #1068. Plaintiff
requested a continuance of sixty days to allow Meals
to appear on his behalf at the hearing. Id. On
November 30, 2018, a hearing was held on the
Motion to Continue. ECF No. 59. The Court granted
in part and denied in part the Motion to Continue
and set the hearing on the Motion for Summary
Judgment for December 14, 2018. Id. Ultimately,
Meals withdrew his Application to appear pro hac
vice, ECF No. 63, and Winnicki and King appeared
on behalf of Plaintiff at the hearing. ECF No. 65.
On January 28, 2019, the Court issued the
Order, ECF No. 70, and Judgment was entered, ECF
No. 71. On February 20, 2019, Plaintiff filed the
instant Motion for Reconsideration of the Order, with
which he submitted a new Declaration. ECF Nos. 73,
73-1. Defendant filed a Memorandum in Opposition
on March 6, 2019, ECF No. 75, and Plaintiff filed his
Reply on March 20, 2019, ECF No. 76.
III. DISCUSSION
A. Motion for Reconsideration
Plaintiff seeks reconsideration of the Order
primarily on the basis that: (1) “
the Court . . .
misconstrued the underlying facts regarding the
conditions under which Plaintiff performed services
as a surgeon for Defendant”; and (2) when the law is
applied to the facts (as clarified by Plaintiff), the
Court should find an employment relationship for
the purposes of Title VII. ECF No. 73 at Page ID
#1178-79. The Court is unpersuaded.

39a
Federal Rules of Civil Procedure 59 and 60
govern case-dispositive orders like the Order.2 See
Local Rule 60.1 (“
Motions seeking reconsideration of
case-dispositive orders shall be governed by Fed. R.
Civ. P. 59 or 60, as applicable.”); see also Adon
Constr. Inc., et al. v. Renesola Am. Inc., et al., 2019
WL 1441597, at *1 n.1 (D. Haw. Apr. 1, 2019). “
The
denial of a motion for reconsideration under Rule
59(e) is construed as a denial of relief under Rule
60(b).” McDowell v. Calderon, 197 F.3d 1253, 1255
n.3 (9th Cir. 1999) (en banc) (per curiam); see also
Fuller v. M.G. Jewelry, 950 F.2d 1437, 1441 (9th Cir.
1991).
Rule 59(e) provides that “
[a] motion to alter or
amend a judgment must be filed no later than 28
days after the entry of the judgment.” Fed. R. Civ. P.
59(e). Such amendment is “
an extraordinary remedy
which should be used sparingly.” McDowell, 197 F.3d
at 1255 n.1 (citation omitted); see also Kona Enters.,
Inc. v. Estate of Bishop, 229 F.3d 877, 890 (9th Cir.
2000). Indeed, there are only a few bases for
amending a judgment:
In general, there are four basic grounds upon
which a Rule 59(e) motion may be granted: (1) if
such motion is necessary to correct manifest
errors of law or fact upon which the judgment
rests; (2) if such motion is necessary to present
newly discovered or previously unavailable
evidence; (3) if such motion is necessary to
prevent manifest injustice; or (4) if the
2

Plaintiff brings the instant motion pursuant to both Rules 59
and 60. ECF No. 73 at PageID #1220.

40a
amendment is justified by an intervening
change in controlling law.
Allstate Ins. Co. v. Herron, 634 F.3d 1101, 1111 (9th
Cir. 2011) (citing McDowell, 197 F.3d at 1255 n.1).
Although “
[a] court considering a Rule 59(e) motion
is not limited merely to these four situations,” id.,
“
[a] Rule 59(e) motion may not be used to raise
arguments or present evidence for the first time
when they could reasonably have been raised earlier
in the litigation.” Kona Enters., Inc., 229 F.3d at 890.
Federal Rule of Civil Procedure 60(b) provides
the following grounds for relief from a casedispositive order:
(1) mistake, inadvertence,
excusable neglect;

surprise,

or

(2) newly discovered evidence that, with
reasonable diligence, could not have been
discovered in time to move for a new trial under
Rule 59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by
an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or
discharged; it is based on an earlier judgment
that has been reversed or vacated; or applying
it prospectively is no longer equitable; or
(6) any other reason that justifies relief.
Fed. R. Civ. P. 60.

41a
Mere disagreement with a court’s analysis in a
previous order is not a sufficient basis for
reconsideration, White v. Sabatino, 424 F. Supp. 2d
1271, 1274 (D. Haw. 2006) (citing Leong v. Hilton
Hotels Corp., 689 F. Supp. 1572 (D. Haw. 1988));
Haw. Stevedores, Inc. v. HT & T Co., 363 F. Supp. 2d
1253, 1269 (D. Haw. 2005). Also, “
[w]hether or not to
grant reconsideration is committed to the sound
discretion of the court.” Navajo Nation v.
Confederated Tribes & Bands of the Yakama Indian
Nation, 331 F.3d 1041, 1046 (9th Cir. 2003) (citing
Kona Enters., Inc., 229 F.3d at 890).
1. The Court Properly Construed the Facts
Plaintiff first contends that the Court
improperly relied on disputed facts when issuing the
Order. ECF No. 73 at PageID #1185. However,
Plaintiff appropriately concedes that he did not
dispute some assertions in Defendant’s Concise
Statement of Facts (“
Defendant’s CSF”). Id.
(“
Plaintiff, filing pro se, did not dispute some of the
assertions in [Defendant’s CSF] because they
appeared facially correct, but their misleading and
biased nature should have been noticed by the
Court.”).
The Court begins its evaluation of this
argument with two observations. First, pro se parties
must comply with Local Rule 56.1(g).3 See Kirksey v.
3

Local Rule 56.1(g) provides that “
[f]or purposes of a motion for
summary judgment, material facts set forth in the moving
party’s concise statement will be deemed admitted unless
controverted by a separate concise statement of the opposing
party.”

42a
Frank, 2011 WL 1230345, at *1 n.1 (D. Haw. Mar.
31, 2011) (applying Local Rule 56.1(g) to pro se
litigant and stating, “
[w]hile the Court recognizes
that Plaintiff is pro se, pro se litigants must still
follow the same rules of procedure that govern other
litigants”) (citing King v. Atiyeh, 814 F.2d 565, 567
(9th Cir. 1987), overruled on other grounds by Lacey
v. Maricopa Cty., 693 F.3d 896 (9th Cir. 2012)).
Second, Plaintiff here in fact complied, at least in
part, with Local Rule 56.1 by contesting a number of
facts asserted in Defendant’s CSF (none of which the
Court adopted), which shows that Plaintiff was
capable of challenging Defendant’s version of the
facts. See ECF No. 41; Henry, 2019 WL 346701, at *1
n.3 (“
Where a fact is not in dispute, the Court cites
directly to Defendant’s CSF.”) (citing Local Rule
56.1(g)).
In his Opposition to the Motion for Summary
Judgment, Plaintiff did not offer the facts he now
raises in contradiction to Defendant’s CSF and in
support of the instant Motion. He essentially
criticizes the Order for failing to address specific
factual disputes that did not exist at the time.
For example, Plaintiff now argues for the first
time that he did not operate a private practice of
medicine and faults the Order for citing to
Defendant’s CSF ¶ 44 when it stated, “
Under the
Recruitment Agreement, Plaintiff was to operate a
4

Defendant’s CSF ¶ 4 provides in relevant part, “
Plaintiff
entered into a ‘Physician Recruitment Agreement’ . . . with
Castle, which provides that . . . Plaintiff would establish a ‘a
private practice’ in the specialty of general surgery at one or
more offices on Oahu[.]” ECF No. 38.

43a
a full-time private practice of medicine in his
specialty on Oahu[.]” ECF No. 73 at PageID #118586; Henry, 2019 WL 346701, at *1. Notably, in the
course of the Summary Judgment litigation, Plaintiff
did not oppose Defendant’s CSF ¶ 4. ECF No. 41.
And the Physician Recruitment Agreement does in
fact state that Plaintiff “
shall . . . operate, a private
practice of medicine in the Specialty . . . at one or
more offices in [the Service Area].” ECF No. 41-2 at
PageID #830. Simply put, Plaintiff’s attempts to
rehabilitate his case through new challenges to the
previously undisputed facts fail. The time to launch
such challenges was in opposition to the Motion for
Summary Judgment.
Under both Rules 59(e) and 60(b), a court may
grant a motion for reconsideration based on newly
discovered evidence. See Herron, 634 F.3d at 1111;
Fed. R. Civ. P. 60(b)(2). Under these rules, evidence
is not newly discovered if the party possessed it or
could have discovered it with reasonable diligence
prior to the entry of judgment. See Coastal Transfer
Co. v. Toyota Motor Sales, U.S.A., 833 F.2d 208, 212
(9th Cir. 1987) (citation omitted); Berg v. Polis, 1997
WL 573418, at *1 (N.D. Cal. Sept. 5, 1997) (citation
omitted). Plaintiff must have known everything
contained in his new Declaration at the time he
responded to the Motion for Summary Judgment,
and Plaintiff does not argue otherwise. Thus, this
evidence is not newly discovered and is not grounds
for reconsideration.5
5

Plaintiff asserts that some of Defendant’s CSF have a
“
misleading and biased nature,” ECF No. 73 at PageID #1185.
To the extent that Plaintiff is arguing some sort of

44a
2. The Court Properly Applied the Law
a. Plaintiff’s new argument that his
agreements with Defendant were contracts of
adhesion
Second, Plaintiff argues for the first time that
the agreements between Plaintiff and Defendant
were contracts of adhesion,6 and thus should not be
considered as part of the Nationwide Mutual
Insurance Co. v. Darden, 503 U.S. 318 (1992),
analysis. ECF No. 73 at PageID #1190-91. Plaintiff
further argues that the Court’s interpretation of
Barnhart v. New York Life Insurance Co., 141 F.3d
1310 (9th Cir. 1998), is “
manifestly erroneous”
because Barnhart “
did not identify the contract
language as a new factor or condition supplementing
or extending the Darden test.” ECF No. 73 at PageID
#1192-93.
While contract language is not an enumerated
factor in Darden, see id. at 323-24, the Darden
factors are a nonexhaustive list, see Loomis Cabinet
Co. v. Occupational Safety & Health Review
Commission, 20 F.3d 938, 942 (9th Cir. 1994).
Accordingly, if the contract language has some
bearing on the inquiry into “
the hiring party’s right
misrepresentation or misconduct by Defendant under Rule
60(b)(3) or manifest injustice under Rule 59(e), the Court finds
such arguments meritless, and the example concerning
Defendant’s CSF ¶ 4, discussed above, supports such a finding.
6

Plaintiff has provided no evidence to support such an
assertion, except for his new Declaration attached to the
instant Motion. ECF No. 73 at PageID #1191.

45a
to control the manner and means by which the
product is accomplished,” Darden, 503 U.S. at 323,
then it is proper for the Court to consider it. And,
contrary to Plaintiff’s assertions, the Ninth Circuit in
Barnhart did just that:
Considering all factors as a whole, however, the
balance tips in favor of independent contractor
status. The contract Barnhart signed contained
clear language stating that Barnhart would be
considered an independent contractor, not an
employee. Consistent with this, Barnhart was
free to operate his business as he saw fit
without day-to-day intrusions. After the first
three-year term of employment, Barnhart was
paid commission only. Barnhart’s tax returns
indicate that he received most of his income
from self-employment. Additionally, Barnhart
was not dependent solely upon New York Life
for his income. Barnhart admittedly sold
competitors’ products. In light of these facts, we
conclude that Barnhart was not an employee of
New York Life for purposes of ERISA and the
ADEA.
Barnhart, 141 F.3d at 1313 (emphasis added).
As a final matter, as in Barnhart, the Court
did not rely solely on the contract language in
finding employee status but rather properly relied on
a number of factors, including several enumerated
Darden factors, in making its determination. See
Henry, 2019 WL 346701, at *4; see also Darden, 503
U.S. at 324 (“
[A]ll of the incidents of the employment
relationship must be assessed and weighed with no

46a
one factor being decisive.”) (citation and quotation
marks omitted).
b. Controlling case law
Third, while Plaintiff concedes that the Court
employed the correct test (the Darden test), he
argues that the Court did not apply it correctly. ECF
No. 73 at Page ID # 1199. In support of his
argument, Plaintiff unpersuasively asserts that the
Order ignored controlling Ninth Circuit precedent —
Mitchell v. Frank R. Howard Memorial Hospital, 853
F.2d 762 (9th Cir. 1988) — and instead relied on
“
older” case law from other jurisdictions. ECF No. 73
at PageID #1201. Mitchell held that the plaintiff had
sufficiently pled a Title VII discrimination claim
under some facts similar to this case. Mitchell, 853
F.2d at 766. Because Mitchell involved a motion to
dismiss, the plaintiff was only required to show that
the pleadings were sufficient on their face. Id.
Accordingly, while Mitchell shares some (but not all)
facts with this case, it does not follow that this Court
must either find employee status under summary
judgment standards or else run afoul of Mitchell. It
also does not follow that the Court should primarily
value factors mentioned in Mitchell, see ECF No. 73
at PageID #1199-1200, when the Court has here
been presented with a number of factors from both
parties after discovery. Further, the Court properly
looked to other circuits for guidance (as Plaintiff has
done extensively in his briefing). See Jackson v.
Sisto, 2008 WL 2396282, at *6 n.8 (C.D. Cal. June 9,
2008) (“
Where there are no cases on point from the
Ninth Circuit, this Court may look to other circuits

47a
for guidance.”) (citing United States v. Tobeler, 311
F.3d 1201, 1203 (9th Cir. 2002)).
Finally, Plaintiff argues that the Court should
not rely “
upon the older case law from the other
circuits applying the common law agency test[.]”
ECF No. 76 at PageID #1507; see also ECF No. 73 at
PageID #1199, 1203-04. This argument is confusing
because the Darden test, which Plaintiff concedes is
the “
test utilized by the Ninth Circuit,” is a common
law agency test. See Darden, 503 U.S. at 323;
Murray v. Principal Fin. Grp., Inc., 613 F.3d 943, 945
(9th Cir. 2010). Further, as Plaintiff concedes, see
ECF No. 76 at PageID #1507, Murray held that
“
there is no functional difference between” the
common law agency test and the economic realities
test. Murray, 613 F.3d at 945. Both tests focus on a
defendant’s right to control the manner and means of
a plaintiff’s work. Id. Accordingly, it is proper for the
Court to seek guidance from cases that use either the
common law agency test or the economic realities
test.7
3. Remaining Arguments
Plaintiff’s remaining arguments, such as
arguments about how to weigh the Darden factors,
see ECF No. 73 at PageID #1204-09, are the type of
“
mere disagreement” that is insufficient to merit
reconsideration. White, 424 F. Supp. 2d at 1274
7

If there were any difference between the two tests, the
common law agency test, not the economic realities test, would
control. See Murray, 613 F.3d at 945 (“
Even if the differences in
formulation might suggest a difference in practical application,
however, Darden’s common law test as pronounced by the
Supreme Court would have to control.”).

48a
reconsideration. White, 424 F. Supp. 2d at 1274
(citing Leong, 689 F. Supp. 1572).
Accordingly, the Court finds no grounds to
grant reconsideration under either Rule 59(e) or
60(b) and denies the Motion for Reconsideration.
B. Motion for Leave to Amend the Complaint
Plaintiff also seeks leave to amend the
Complaint.8 ECF No. 73 at PageID #1180. Because
the Court concludes that Plaintiff fails to establish
grounds for reconsideration under Rules 59 and 60,
the Court may not consider Plaintiff’s motion seeking
leave to amend the Complaint. See Lindauer v.
Rogers, 91 F.3d 1355, 1357 (9th Cir. 1996) (“
[O]nce
judgment has been entered in a case, a motion to
amend the complaint can only be entertained if the
judgment is first reopened under a motion brought
under Rule 59 or 60.”); see also Bien v. LifeLock Inc.,
2015 WL 12836019, at *1 n.1 (D. Ariz. Sept. 18,
2015), aff’d sub nom. In re LifeLock, Inc. Sec. Litig.,
690 F. App’x 947 (9th Cir. 2017) (refusing to consider
plaintiffs’ motion to amend the complaint after
denying plaintiff’s motion for relief pursuant to Rule
60(b)).9 The Motion to Amend is denied.
8

This is an about-face from prior statements from Plaintiff’s
counsel. Counsel stated at the November 30, 2018 hearing that
“
[w]e’re not asking for our firm to be given an opportunity to file
supplemental memoranda with regard to the issues or to modify
the pleadings or anything of that nature” — which is exactly
what Plaintiff now seeks to do. 11/30/18 Tr., ECF No. 74 at 5:36.
9

For the same reasons, the Court has no power (without
reopening the case under Rules 59 or 60) to consider Plaintiff’s
requests to supplement the record pursuant to Rule 56(e) or to

49a
IV. CONCLUSION
For the foregoing reasons, Plaintiff’s Motion
for Reconsideration is DENIED and Plaintiff’s
Motion for Leave to Amend the Complaint is
DENIED.
IT IS SO ORDERED.
DATED: Honolulu, Hawaii, April 24, 2019
/s/ Jill A. Otake, United States District Judge

grant a continuance to conduct additional discovery, see ECF
No. 73 at PageID #1180. Cf. Alaska Ctr. for Env’t v. Browner,
20 F.3d 981, 986 (9th Cir. 1994) (“
The federal rules specifically
authorize the use of interrogatory answers in summary
judgment practice, and any objection to their use in this case
should have been made at the summary judgment stage, not
after a final judgment had been entered.”).
Henry v. Adventist Health Castle Med. Ctr., et al., Civ No. 1800046 JAO-KJM, Order Denying Plaintiff’s Motion for
Reconsideration and Motion for Leave to Amend the Complaint,
ECF No. 73

